                            United States
                            Department of Energy

                            Office of Inspector General



           DOE/IG-0023      Semiannual
                            Report to
                            Congress

  Inspector General’s
Message - Highlights of
 Significant Activities


      The Department’s
   Vulnerabilities/Risks
        in Management
             Challenges


      Other Noteworthy
      Accomplishments


    OIG Reports Issued
   and Followup Action
              Process


Statistical Data-Savings,
       Questioned Costs,
  H0tline Statistics, and
     Fines, Settlements,
          and Recoveries

                            April 1, 2001, to September 30, 2001
                              Department of Energy
                                    Washington, DC 20585

                                      October 29, 2001




The Honorable Spencer Abraham
Secretary
U.S. Department of Energy
Washington, D.C. 20585

Dear Secretary Abraham:

I am pleased to submit the Office of Inspector General’s (OIG) Semiannual report to
Congress. The report summarizes significant OIG activities and accomplishments during
the 6-month period ending September 30, 2001. The Inspector General Act, as amended,
requires you to forward the report to the appropriate congressional oversight committees
within 30 days of your receipt of this report.

This report reflects our continuing commitment to focus OIG efforts on the issues and
concerns most critical to the Administration, the Department, and the Congress. In
particular, it describes OIG accomplishments in identifying the most significant
management challenges facing the Department.

We look forward to working with you on matters of mutual interest.

                                                Sincerely,




                                                Gregory H. Friedman
                                                Inspector General

Enclosure




                                    Printed with soy ink on recycled paper
                         At Your Service




                    THE INSPECTOR GENERAL'S           1
                    MESSAGE
Table of Contents




                    MANAGEMENT CHALLENGES             5
                    AND SIGNIFICANT ACCOMPLISHMENTS



                    OTHER SIGNIFICANT                 45
                    ACCOMPLISHMENTS



                    REPORTS ISSUED                    51



                    STATISTICS                        56
                                                                          At Your Service



                                                                O        n behalf of my colleagues in the Department of
                                                                Energy’s (Department) Office of Inspector General (OIG), we
                                                                are greatly saddened by the tragic events of September 11,
                                                                2001, and thereafter, and we join the President, the Secretary,
Inspector General's Message



                                                                Members of Congress, and the Nation in expressing our
                                                                sincere sympathy to the victims and to their families. We also
                                                                commend the heroic efforts of all who risked their lives for
                                                                the sake of others during the terrible series of events.

                                                                A number of persons from the ranks of the Inspector General
                                                                community have been impacted by this tragedy and many
                                                                are also helping in ways too numerous to mention here. The
                                                                day after these events, our office received a request from
                                                                the Federal Bureau of Investigation’s National Infrastructure
                                                                Protection Center to assist in coordinating certain aspects
                                                                of the Federal law enforcement and counterintelligence
                                                                efforts relative to the terrorist attacks. We immediately
                                                                provided the services of OIG personnel to work full-time on
                                                                this challenge. We also assigned staff to the Federal Aviation
                                                                Administration’s Air Marshal Program.
                              Gregory H. Friedman
                               Inspector General                I am proud to be associated with people who are participating
                                                                in addressing this national challenge, and our office remains
                                                                committed to assisting the Department’s efforts during a most
                                                                difficult time.

                                                                At the same time, and consistent with the President’s
                                                                admonitions, the other work of Government will and must go
                                                                on. Thus, for the semiannual reporting period ending
                                                                September 30, 2001, we continued to assist the Department in
                                                                meeting its management challenges associated with its
                                                                programs and operations considered to be most vulnerable to
                                                                waste, fraud, and abuse. Of significant importance are the
                                                                information technology and security challenges. During this
                                                                reporting period, we performed evaluation and audit work
                                                                involving the Department’s unclassified and classified
                                                                information systems security, in conformance with the
                                                                Government Information Security Reform Act of 2001
                                                                (GISRA), and found that:




                              Additional information on the OIG, including the full text of its public reports and Department
                              management’s comments, can be found on the OIG website – www.ig.doe.gov.                          1
                      At Your Service

                 While the Department had made improvements in its
                  unclassified cyber security program, the program did not
                  adequately protect data and information systems as
                  required by the GISRA. Specifically, we found
                  problems with security program planning and
                  management, including problems with risk management,
                  contingency planning, computer incident reporting, and
                  training management. We believe these weaknesses
                  increase the risk that critical systems, a number of which
                  enable delivery of essential services to members of the
                  public and other Federal agencies, could be
                  compromised or disabled by malicious and unauthorized
                  users. Further, the OIG’s audit of the Office of
                  Independent Oversight and Performance Assurance’s
    economy

                  (OA) evaluation of classified information systems was
                  performed as required by GISRA. Overall the
                  Department’s evaluation of classified information
                  systems was performed as required by GISRA.
                  However, we were unable to complete verification
                  procedures and determine whether all requirements had
                  been satisfied because OA’s documentation to support
                  past evaluations was not always available. In addition,
                  we were unable to determine whether all evaluation
                  requirements had been satisfied because policies and
                  procedures to govern the conduct of cyber security
                  reviews had not been finalized.

              We also completed a review of the Department’s virus
              protection strategy and cyber security incident reporting
              methods:

                 The Clinger-Cohen Act and Federal regulations require
                  the Department to establish a comprehensive cyber
                  security program that includes a robust virus protection
                  strategy and an incident response capability designed to
                  identify the Department’s overall cyber security threat.
                  An OIG audit found that the Department had not
                  developed and implemented an effective enterprise-wide
                  strategy for virus protection and cyber security incident
                  reporting. As a result, the Department spent over
                  $3.8 million annually for computer incident response
                  capability that cannot adequately assess the threat
                  throughout the Department.




2
                     At Your Service

             In addition, the OIG assisted the Department’s senior
             management and the Congress by identifying opportunities
             for improving program performance and accountability.
             Recent examples include:

               Highlighting the importance of fully implementing the
                Government Performance and Results Act of 1993 by
                identifying, in a response to a request from the Chairman,
                Committee on Government Reform, U.S. House of
                Representatives, the 10 most significant performance
                measures contained in the Department’s accountability
                report. We also identified the extent to which the data or
                information underlying the measures are valid and
efficiency

                accurate.

               Briefing the Secretary of Energy on OIG reviews that
                presented opportunities for cost savings in the
                Department’s Environmental Management programs.
                One OIG audit found that the Department’s cleanup at its
                Miamisburg, Ohio, facility is 4 years behind schedule and
                $500 million over budget. Also, citing a 1999 OIG report,
                the Chairman of the House Energy and Commerce
                Committee’s Subcommittee on Oversight and
                Investigations requested a comprehensive General
                Accounting Office review of the environmental
                compliance agreements to which the Department is a
                party. The 1999 report concluded that the Department
                could save $66 million by deferring processing of 3,100
                cubic meters of waste until a new Treatment Facility was
                operational.

               Assisting in the recovery of over $8 million, $3.8 million
                of which will be returned to the Department as a result of
                a false claims investigation of a major engineering and
                construction contractor.

               Issuing a report summarizing a body of OIG work
                evaluating the Department’s progress in implementing the
                Clinger-Cohen Act and other information technology (IT)
                requirements, thereby helping to ensure that the
                Department’s IT architecture is corporate, coherent, and
                cost-effective.




                                                                        3
                            At Your Service

                      Recommending that the Department develop and
                       implement a comprehensive, multi-year workforce-
                       planning program, including performance measures, that
                       emphasizes the aggressive and creative use of available
                       human resource tools to attract and retain a highly skilled
                       scientific and technical workforce. These
                       recommendations are complementary to the Office of
                       Management and Budget’s (OMB) bulletin on workforce
                       planning and restructuring and the Department’s response
                       to OMB.
    effectiveness
                      Recommending that the Department reconsider building a
                       Plutonium Immobilization Plant at Savannah River and
                       analyze the use of existing site facilities. The overall cost
                       savings associated with an alternative approach could be
                       in excess of $650 million.

                    We look forward to continuing to be of service on matters of
                    importance to the Department.




4
                                                                            At Your Service



                                                                   T         he OIG’s work focuses on major challenges it has
                                                                   identified as most vulnerable to fraud, waste, and
                                                                   mismanagement in Department programs and operations,
                                                                   including the National Nuclear Security Administration
Significant Accomplishments
Management Challenges and




                                                                   (NNSA). Since 1997, the OIG has provided the Secretary
                                                                   and Congress with an annual assessment of the most
                                                                   significant management challenges confronting the
                                                                   Department. For Fiscal Year (FY) 2001, the challenges
                                                                   were:

                                                                  ♦   Information Technology;
                                                                  ♦   Human Capital;
                                                                  ♦   Security;
                                                                  ♦   Environmental Remediation/Safety and Health;
                                                                  ♦   Effective Establishment of the NNSA;
                                                                  ♦   Contract Administration;
                                                                  ♦   Energy Supply/Demand Technology; and,
                                                                  ♦   Property Controls and Asset Inventories.

                                                                   Information Technology (IT)

                                                                  The Department spends an estimated $1.4 billion annually on
                                  Did you know?                   IT. It is essential that the Department develop and implement
                                  Federal agencies invest
                                                                  an effective IT management, investment and control process.
                                  more than $40 billion           Since 1996, OIG reports have identified numerous
                                  in IT to support some           weaknesses in the Department’s implementation of the
                                  26,000 information              Clinger-Cohen Act of 1996 and in the management of its $1.4
                                  systems.
                                                                  billion annual IT expenditures. Several reviews completed
                                  Source: Budget of the           during this semiannual reporting period recommended ways
                                  United States                   to improve the integrity and management of the Department’s
                                  Government, Fiscal Year         IT activities, as required by the Clinger-Cohen Act.
                                  2002

                                                                  The Department’s Efforts to Implement the Clinger-
                                                                  Cohen Act Have Not Achieved Expected Results

                                                                  To enhance the management and control of IT, Congress
                                                                  passed the Clinger-Cohen Act requiring Federal Agencies to
                                                                  appoint a Chief Information Officer (CIO) to manage IT
                                                                  investments and to adopt a performance-and-results-based



                              Additional information on the OIG, including the full text of its public reports and Department
                              management’s comments, can be found on the OIG website – www.ig.doe.gov.                          5
                      At Your Service

              management approach to acquiring, using, and disposing of
              IT. The OIG issued a special report highlighting problems
              that have been identified and reported over time with the
              Department’s implementation of the Clinger-Cohen Act.

              The audit found that while the Department has taken action to
              address certain IT-related management problems, it has not
              been completely successful in implementing the requirements
              of the Clinger-Cohen Act. Since the passage of the Clinger-
              Cohen Act, the OIG had issued 13 IT-related reports that
              identified problems associated with meeting the requirements
              of the Clinger-Cohen Act. Cumulatively, these reports
              demonstrate systemic problems with the Department’s
              approach to IT management and its method of addressing
    economy

              requirements of the Clinger-Cohen Act. Specifically, the
              Department has not satisfied major requirements of the
              Clinger-Cohen Act to: (1) develop and implement an
              integrated, enterprise-wide, IT architecture; (2) closely
              monitor policy implementation efforts; and (3) acquire IT-
              related assets in an effective and efficient manner. Factors
              such as a decentralized approach to IT management, the
              organizational placement of the CIO, and the lack of an IT
              baseline may have contributed to these problems and
              impacted the Department’s ability to satisfy the Clinger-
              Cohen Act’s requirements. As pointed out in OIG reports,
              potential operational efficiencies and savings totaling more
              than $100 million were possible through better
              implementation of Clinger-Cohen Act requirements.

              The OIG made a series of recommendations designed to
              improve Clinger-Cohen Act implementation efforts and the
              overall management of the IT program. Department
              management agreed with two of the OIG recommendations.
              However, it did not agree with the OIG’s primary
              recommendations to realign the Office of the CIO to report to
              the Head of the Agency and to provide the office with greater
              oversight authority. As of October 2001, the Department
              changed its position and agreed to implement all of the OIG’s
              recommendations. (IG-0507)

              The Department’s Virus Protection Strategies and Cyber
              Security Incident Reporting Need Improvement

              The Clinger-Cohen Act and Federal regulations require the
              Department to establish a comprehensive cyber security


6
                     At Your Service

             program that includes a robust virus protection strategy and
             an incident response capability to identify its overall cyber
             security threat. An OIG audit found that the Department’s
             virus protection strategies and cyber security incident
             reporting methods did not adequately protect information
             systems from damage by viruses and did not provide
             sufficient information needed to manage its network intrusion
             threat. For example, site virus protection strategies were not
             consistent with best practices and varied widely in levels of
             coverage and effectiveness. Additionally, the Department
             was unable to accumulate sufficient information necessary to
             manage its network intrusion threat and risked compromising
             evidence of computer crimes because little or no information
efficiency

             was being reported regarding cyber security incidents. These
             problems existed because the Department had not developed
             and implemented an effective enterprise-wide strategy for
             virus protection and cyber security incident reporting. As a
             result, the Department spent over $3.8 million annually for
             computer incident response capability that cannot adequately
             assess the threat experienced throughout the Department.

             The OIG made a number of recommendations designed to
             improve the effectiveness of the Department’s virus
             protection strategy and cyber security incident reporting
             programs. Department management agreed to develop policy
             and establish specific performance goals to measure the
             effectiveness of policy implementation. Management also
             agreed to investigate the viability of a centrally managed
             procurement for virus protection software. (IG-0500)

             The Acquisition of Information Technology Support
             Services Not Being Effectively Managed

             The OIG performed an audit to determine whether the
             Department had a comprehensive framework for the
             acquisition of IT support services.

             The audit found that the Department did not have a
             comprehensive framework for acquiring IT support services.
             Despite CIO sponsored initiatives, the Department was not
             effectively managing the acquisition of IT support services.
             For example, Headquarters and field elements routinely
             resorted to open-market procurements without formally




                                                                        7
                            At Your Service

                    considering the use of existing Federal contracts. When
                    existing contracts were used, Headquarters program elements
                    did not coordinate or consolidate requirements and issued 58
                    separate task orders against a single contract for the same or
                    similar services. Despite Clinger-Cohen Act requirements,
                    the Department did not require organizations to use existing
                    Federal contracts or to consolidate acquisitions when
                    acquiring IT support services. As a result, for Headquarters
                    program offices alone, annual costs were at least $16 million
                    more than similarly sized Federal agencies. Departmentwide
    effectiveness
                    savings of as much as $44 million may be possible by
                    adopting an enterprise-wide approach to acquiring IT support
                    services.

                    The OIG recommended that the Acting CIO, in conjunction
                    with Lead Program Secretarial Officers and the CIOs’
                    Council: (1) develop and implement an acquisition
                    framework for IT support services; and (2) develop
                    performance measures including a Departmentwide
                    benchmark for IT support costs and routinely monitor
                    performance against the benchmark. Department
                    management concurred in principle with the OIG
                    recommendations. Certain program officials believed that
                    sufficient credit was not given in instances where existing
                    contracts were used or for efforts to consolidate requirements.
                    Nevertheless, management agreed to develop a plan to
                    address the OIG recommendations. (IG-0516)

                    Corporate-level Information Technology System Does Not
                    Fully Satisfy Management Information Needs

                    To support the Department’s environmental remediation
                    mission, the Office of Environmental Management (EM)
                    developed a corporate-level project system known as the
                    Integrated Planning, Accountability, and Budgeting System-
                    Information System (IPABS-IS). The system, coupled with
                    the EM Corporate Database, was to provide a centralized
                    means to collect, store, and report program information. The
                    OIG conducted an audit to determine whether the IPABS-IS
                    satisfied IT architecture requirements and was meeting users’
                    information needs and Department goals.




8
                  At Your Service

          The audit found that IPABS-IS was not integrated into the
          Department’s Corporate Systems Information Architecture
          and did not fully satisfy Department goals and meet users’
          information needs. Despite prior attempts at developing and
          operating a corporate-level information system solution, the
          Department did not integrate this system’s development into
          its IT architecture project. As a consequence, there were
          project management and security weaknesses in the
          development and operation of IPABS-IS that impacted its
          ability to satisfy Department goals and meet users’
          information needs. The Clinger-Cohen Act and OMB
          directives required that agencies maximize the value of IT
          investments by monitoring and integrating development into
          an agency-wide IT architecture. Contrary to these
economy

          requirements, the Department did not actively manage or
          closely monitor the system’s development. As a result, EM
          spent about $6 million for a corporate-level information
          system solution that does not fully satisfy management
          information needs and may not achieve the Department’s
          architecture goals. In addition, the Department could
          potentially save over $770,000 by utilizing existing capacity
          instead of outsourcing required computing services over the
          projected remaining life of the system.

          The OIG recommended that Department management better
          monitor IT development and operations by: (1) requiring that
          IPABS-IS interfaces be established that are consistent with
          Corporate Systems Information Architecture components; (2)
          establishing performance measures or goals, to be included in
          the Department’s Annual Performance Plans, for improving
          IT system development and operation; (3) immediately
          improving IPABS-IS access control weaknesses and
          continuity of operations; and (4) ensuring that actions
          initiated in response to a Management Alert on questionable
          IT procurements are completed. With the exception of
          Recommendation 2, management agreed with the
          recommendations and proposed corrective action.
          Management believed that including measures for a relatively
          small, mission related system development effort, when
          compared to overall program budget dollars, would be
          misplaced in the Department’s Annual Performance Plans.
          (IG-0509)




                                                                      9
                                            At Your Service

                                    Additional IT reviews found the following:

                                    The Department Needs to Develop Procedures to Ensure
                                    that Peer-Review Literature is Collected in the
                                    PubScience Database

                                    The Department operates four light source facilities which are
     Did you know?
                                    used to conduct experiments in disciplines such as chemistry,
                                    biology, and physics. In FY 2000, the light sources received
     The National Synchrotron       $172 million in funding and served over 5,000 users.
     Light Source (NSLS),           Research performed at the light sources resulted in the
     Brookhaven National
     Laboratory, is one of
                                    publication of over 540 peer-reviewed scientific journal
     the largest user facilities    articles in FY 2000. For Department-sponsored research
     worldwide. Over 2500           performed at these facilities, the Department’s Office of
     scientists representing more   Scientific and Technical Information (OSTI) is responsible
     than 417 institutions, over
     50 of them corporations,
                                    for collecting and preserving the resulting scientific and
     come to Brookhaven annually    technical information and making the information readily
     to conduct research at         available to the public and to the general science community.
     the NSLS.                      To accomplish its mission, OSTI established agreements with
                                    35 publishers to receive abstracts of articles relevant to the
     Source: NSLS Website, DOE
                                    Department’s scientific community, as well as information
                                    that was developed as the result of Government-sponsored
                                    research. When received from the publishers, OSTI enters
                                    these abstracts into a database entitled PubSCIENCE.
                                    Researchers throughout the scientific community can access
                                    this database to search for peer-reviewed journal articles in
                                    the physical sciences and other energy-related disciplines.
                                    The OIG conducted an audit to determine if abstracts of peer-
                                    reviewed scientific journal articles generated from work
                                    performed at the light sources were available for public
                                    dissemination through OSTI.

                                    The OIG audit found that only 44 percent of the abstracts
                                    associated with the research performed at the Department’s
                                    light source laboratories in FY 2000 was available for public
                                    dissemination through OSTI. The abstracts were not
                                    available because the Department had not established
                                    adequate procedures to ensure that peer-reviewed journal
                                    literature for research performed at the light sources was
                                    collected in OSTI’s PubSCIENCE database.




10
                                         At Your Service

                                 The OIG recommended that the OSTI Director establish
                                 procedures to: (1) periodically update the PubSCIENCE
                                 database with bibliographic records made available by the
                                 light sources in accordance with Department Order 241.1A;
                                 (2) identify and recover abstracts missing from PubSCIENCE
                                 from those publishers having agreements with OSTI; and (3)
                                 collect and disseminate journal citation data from the light
                                 sources for peer-reviewed articles not covered by publisher
                                 agreements. Management concurred with the OIG
                                 recommendations. (IG-0520)

                                 Recovery of Computer Software Programming Code

                                 An OIG investigation substantiated allegations that a
                                 Department subcontractor employee stole and destroyed a
                                 computer software programming code that was developed at
                                 a Department National Laboratory. A division of the
                                 Laboratory developed the software as a centerpiece to
                                 provide multi-sensory interactive computer communication to
                                 the scientific community. The investigation revealed that
                                 before resigning from his position as a software engineer at
                                 the Laboratory, the employee successfully destroyed the
                                 major components of the code and made a copy of the
                                 software.

                                 A search warrant was executed upon the residence of the
                                 employee, and the OIG Technology Crimes Section (TCS)
                                 conducted forensic analysis on the computer media obtained
                                 during the search. The TCS was able to recover all of the
                                 computer software programming code that was stolen and
                                 destroyed by the employee. The software, valued at
                                 $245,000, was later returned to the Laboratory.
Did you know?
                                 This case has been accepted for criminal prosecution by a
As of FY 2000, up to 30          U. S. Attorney’s Office. The investigation is continuing.
percent of the Department’s      (I01TC006)
critical workforce will be
eligible for retirement within
the next 5 years.                 Human Capital
Source: Department
of Energy Performance            Strategic Management of Human Capital is one of the
and Accountability Report,       President’s five major Govermentwide management
FY 2000
                                 initiatives and has become one of the most significant
                                 challenges facing the Department. Since 1995, the



                                                                                             11
                           At Your Service

                  Department has reduced Federal staff from 13,640 to 10,027
                  through reductions in force, buyouts, and attrition during a
                  hiring moratorium to meet budget reductions and
                  Governmentwide downsizing goals. The massive downsizing
                  has created mission-critical staffing needs in a number of
                  technical areas. A recent OIG review underscores the
                  significance and potential long-term impact this challenge
                  presents to the Department.

                  The Department Needs to Develop and Implement a
                  Comprehensive, Multi-year Workforce Planning
                  Program
     efficiency

                  The OIG conducted an audit to determine whether the
                  Department has been able to recruit and retain scientific and
                  technical personnel. The audit determined that the
                  Department has been unable to recruit and retain scientific
                  and technical staff in a manner sufficient to meet identified
                  mission requirements. Based on an OIG analysis of attrition
                  and hiring since 1999, as of January 2001, the Department
                  faced an immediate need for as many as 577 scientific and
                  technical specialists. Further, if this trend continues, the
                  Department could face a shortage of nearly 40 percent in
                  these classifications within 5 years. Despite its 1998
                  Workforce for the 21st Century Initiative, the Department had
                  not developed a comprehensive workforce plan, nor had it
                  fully exploited available tools to recruit and retain staff. As a
                  result, the Department may not have the Federal scientific
                  and technical expertise to effectively administer the work of
                  its contractors. In such an environment, there is an increased
                  risk of a variety of management problems.

                  To its credit, the Department has recognized the seriousness
                  of its human capital problem; however, the scope of its
                  corrective actions, including new and innovative approaches,
                  needs to be broadened, and the pace of its implementation of
                  these actions needs to be accelerated.

                  The OIG recommended that the Department develop and
                  implement a comprehensive, multi-year workforce planning
                  program, including performance measures, that emphasizes
                  the aggressive and creative use of available human resource
                  tools to attract and retain a highly skilled scientific and




12
                        At Your Service

                technical workforce. These recommendations are consistent
                with and complementary to OMB’s bulletin on workforce
                planning and restructuring and the Department’s response.
                The bulletin required agencies to submit a workforce analysis
                to OMB and develop restructuring plans based on that
                analysis. In response to the OIG’s recommendations, the
                Department convened a Human Capital Summit to initiate its
                Human Capital Management Plan. This plan is designed to
                rebuild the Department’s workforce and make the
                Department an employer of choice. (IG-0512)
effectiveness
                 Security
                The Department spends over $1 billion per year for physical
                and personnel security for NNSA and other Department sites.
                Previous reviews by the OIG, Congress, and others have
                identified weaknesses in the Department's protection of
                nuclear weapons-related information. In today’s
                environment, the Nation’s security is receiving heightened
                attention and significant changes are being undertaken to
                improve various aspects of the Nation’s security. Congress
                passed the GISRA in response to the increasing threat to the
                Federal computing environment. GISRA requires agency
                inspectors general to perform an evaluation of unclassified
                information systems security as well as an audit of the
                evaluation of classified information systems security.
                Although the Department has taken positive steps to improve
                its information security systems, OIG reviews continue to
                identify management deficiencies. Examples include the
                following:

                Unclassified Information Systems Security Weaknesses

                While the Department has made improvements in its
                unclassified cyber security program, the evaluation found that
                the program did not adequately protect data and information
                systems as required by GISRA. Specifically, the OIG
                observed problems with risk management, contingency
                planning, computer incident reporting, and training
                management. Configuration management or access control
                problems also existed at many of the 24 sites evaluated.
                Problems with design and implementation of cyber security
                policy, including a lack of monitoring and specific, focused




                                                                           13
                       At Your Service

               performance measures, contributed to these weaknesses and
               adversely impacted the effectiveness of the entity-wide
               program. Observed weaknesses increased the risk that
               critical systems, a number of which enable delivery of
               essential services to members of the public and other Federal
               agencies, could be compromised or disabled by malicious and
               unauthorized users.

               The OIG made a number of recommendations designed to
               improve the effectiveness of the Department’s unclassified
               cyber security program. Department management agreed in
               principle with the OIG recommendations and indicated that it
               would prepare a plan to address reported weaknesses.
               (IG-0519)
     economy

               Improvements Needed in the Evaluation Process for
               Classified Information Systems Security

               The Department formally selected the Office of Independent
               Oversight and Performance Assurance (OA) to perform the
               independent evaluation of its classified information systems
               security program required by GISRA. The OIG performed an
               audit of this evaluation to determine whether the evaluation
               of classified information systems complied with GISRA
               requirements.

               Overall, the audit found that the evaluation of classified
               information systems was performed as required by GISRA.
               OA’s “Report on the Status of the Department of Energy’s
               Classified Information Systems Security Program” should
               provide the Department with reasonable assurance that the
               processes of managing and controlling classified information
               systems have been independently evaluated. While the
               approach appeared to be reasonable, the OIG was unable to
               complete verification procedures considered necessary
               because documentation to support past evaluations was not
               always available. In addition, the OIG was unable to
               determine whether all evaluation requirements had been
               satisfied because OA had not finalized policies and
               procedures to govern the conduct of cyber security
               evaluations.

               The OIG recommended that the OA Director: (1) develop and
               implement a structured approach to documenting and



14
                                        At Your Service

                               maintaining information to support each classified
                               information system evaluation report; and (2) adopt formal
                               policies and procedures to govern classified information
                               system evaluations. Such policies should cover all aspects of
                               the evaluation process and should specifically address topics
                               such as the extent of coverage, areas of concentration, and
                               overall review methodology. Department management
                               agreed with our finding and recommendations and indicated
                               that it had initiated corrective action. (IG-0518)

                               The OIG completed another security-related review as
                               follows:

                               Hacker Guilty of Unauthorized Access to Government
                               Computers

                               In a previous Semiannual Report, the OIG Technology
                               Crimes Section reported the results of a joint investigation
                               into allegations that an individual gained unauthorized access
                               to a Government web server operating at the Department’s
                               Sandia National Laboratory (Sandia), Albuquerque, New
                               Mexico. The hacker allegedly defaced the web page
                               replacing it with obscene statements. During the
                               investigation, search warrants were executed at two
                               residences and a business, which led to the subject’s arrest
                               and confession to the defacement and computer intrusions at
                               Sandia. Additionally, the subject confessed to committing
                               several computer intrusions at other Government and
                               commercial entities and consequently pleaded guilty in the
                               State of Michigan Judicial Circuit Court to one count of
                               Computers-Unauthorized Access.

                               During this reporting period, the subject was sentenced to 90
Did you know?
                               days at a Military Academy, 40 hours of community service,
                               and fines totaling $220. In addition, the subject will serve in-
At the beginning of FY 2001,   home detention, length of time to be determined by a
the Department had finished    probation officer. The subject is scheduled for a review
active cleanup at 71 of 113
geographic sites, leaving 42
                               hearing in January 2002. (I01TC009)
to be completed.
                                Environmental Remediation/Safety and
Source: Department of
Energy Annual Performance
                                 Health
Plan for FY 2002
                               The Department is now faced with significant long-term
                               environmental compliance and waste management problems



                                                                                            15
                           At Your Service

                  due to past operating practices that left a legacy of waste
                  which was not stored or disposed of in accordance with
                  current laws or standards. Cleaning up the entire nuclear
                  weapons legacy will take several decades, with the cost
                  estimated at about $230 billion. To the Department’s credit,
                  steady progress has been made in managing its waste disposal
                  activities. However, recent OIG reviews continue to identify
                  the need for increased management attention to reduce the
                  overall cost of operations while achieving program
                  objectives. In addition, ensuring the safety and health of its
                  workforce and the public is another of the Department's most
                  difficult, long-term challenges. Safety and health issues
                  encompass all activities relating to the identification, testing,
     efficiency

                  handling, labeling, cleanup, storage, and/or disposal of
                  radioactive and hazardous waste. Other activities relate to
                  nuclear safety and occupational and worker safety and health
                  (e.g., nuclear safety standards). OIG reviews completed
                  during the period addressed these challenges.

                  Closure of the Miamisburg Environmental Management
                  Project Behind Schedule and Project Completion Costs
                  Increase

                  In August 1997, the Department awarded a cost-plus-award-
                  fee contract to BWXT of Ohio, Inc. (BWXTO) for
                  remediation and closure of the Miamisburg Environmental
                  Management Project (MEMP). Congress requires the
                  Department to request adequate funding to keep the project
                  on schedule for closure by 2006 or earlier.

                  An OIG audit was conducted to determine whether BWXTO
                  is on schedule to complete remediation and exit the site no
                  later than September 30, 2005. The audit found that BWXTO
                  will not complete the project until December 2009. The
                  Department and BWXTO had committed to a project
                  completion date without knowing whether the date was
                  achievable. Additionally, BWXTO’s original baseline
                  estimates were based on outdated and inaccurate information.
                  As a result of not staying on schedule, the estimated cost to
                  complete the project has grown from $427 million to over
                  $1 billion. This amount includes $148 million in
                  infrastructure costs to keep the site open through 2009. Thus,




16
                                            At Your Service

                                   the facilities will not be available for commercial use in
                                   October 2005 as planned.

                                   The OIG recommended that the Deputy Assistant Secretary,
                                   Office of Site Closure: (1) determine the most realistic
                                   completion date and level of funding necessary to complete
                                   remediation, and notify Congress; and (2) ensure that
                                   projected completion dates and funding requests for future
                                   projects are based on a current, accurate, and complete
                                   baseline.

                                   The OIG also recommended that the Manager, Ohio Field
                                   Office: (1) require BWXTO to prepare a complete and
                                   accurate baseline that reflects current site conditions and
                                   assumptions; (2) ensure that baseline change proposals are
                                   submitted, evaluated, and approved in a timely manner; and
                                   (3) use cost and schedule baselines to establish performance
                                   measures for evaluating contractors’ performance.
                                   Department management agreed with the recommendations
                                   and initiated corrective actions. (IG-0501)

                                   Waste Disposal Facilities Not Being Effectively or
                                   Efficiently Utilized

                                   Since the creation of the Department’s nuclear weapons
                                   complex, large amounts of low-level waste have been
                                   generated. To date, the Department has disposed of nearly 69
                                   million cubic feet of this waste at its facilities, and over the
                                   next 70 years, plans to dispose of an additional 358 million
                                   cubic feet of low-level waste. In February 2000, the
                                   Department announced that it had developed a hierarchy of
                                   preferred options for disposal of this low-level waste. In
                                   order of priority, these were to dispose of low-level waste at:
                                   (1) the site of origin; (2) the Nevada Test Site or Hanford
                                   Site; or (3) commercial facilities. The OIG conducted an
                                   audit to determine whether the Department was fully utilizing
                                   disposal capacity at Nevada and Hanford.

                                   While the Department has taken steps to improve its
Low-Level Waste Disposal, Nevada   management of low-level waste disposal, the audit found that
Test Site, Mercury, NV
                                   over the past 2 years, disposal facilities at Nevada and
                                   Hanford have operated at less than 50 percent of capacity. In
                                   spite of the availability of the unused capacity, the




                                                                                                17
                             At Your Service

                     Department stored large amounts of waste at generator sites
                     and disposed of some waste commercially. This occurred
                     because the Department did not have a comprehensive
                     approach to maximize the safe and cost-effective disposal of
                     waste. As a result, the Department did not realize the
                     maximum benefit from its $30 million investment for certain
                     waste disposal operations at Nevada and Hanford and storage
                     operations at waste generator sites.

                     The OIG recommended that the Assistant Secretary for
     effectiveness
                     Environmental Management: (1) establish an integrated
                     complex-wide disposal program to ensure optimal use of
                     disposal facilities; (2) develop standard waste acceptance
                     criteria to allow for waste generators to readily use either
                     Nevada or Hanford; and (3) establish performance measures
                     for the efficient use of Nevada and Hanford disposal
                     operations. Department management concurred with these
                     recommendations and agreed to initiate corrective action.
                     (IG-0505)

                     Marketing Program for Training Center for Handling
                     Hazardous Materials Needs Significant Reduction

                     The FY 1994 National Defense Authorization Act authorized
                     the establishment of Hazardous Materials Management
                     Emergency Response (HAMMER) Training and Education
                     Centers at Department sites to provide training for handling
                     hazardous materials. The only Department center built to
                     date is located at the Hanford Site in Richland, Washington.
                     Fluor Hanford, Inc. (Fluor) operates HAMMER under a
                     contract with the Department’s Richland Operations Office
                     (Richland). Industry experts and other external sources
                     provide the actual training. Because it was anticipated that
                     Hanford employees would use only 50 percent of the training
                     center’s capacity, Fluor established a marketing department
                     to attract non-Hanford customers. Through this mechanism,
                     the Department and Fluor hoped to generate enough revenue
                     to make the training center self-sustaining. An OIG audit
                     was conducted to determine whether the marketing program
                     for HAMMER has been effective.

                     The audit found that HAMMER’s marketing program has not
                     been effective. Although Fluor was able to attract external




18
                                                       At Your Service

                                               customers, the revenues generated from those customers were
                                               far less than the costs incurred in marketing the training
                                               center. For example, during FYs 1998 to 2001, the marketing
                                               program spent about $3.4 million more than HAMMER
                                               received in revenues. During the first four years of operation,
                                               non-Hanford customers have never used over 5 percent of
                                               HAMMER’s training capacity even though there was over 65
                                               percent of the total training capacity available. The reason
                                               the marketing program has not been successful is that
                                               HAMMER is not attractive to external users. HAMMER
                                               does not have its own trainers and is not physically located in
                                               a readily accessible area. The OIG estimated that Richland
                                               could better use approximately $800,000 annually if it
                                               reduced the marketing program to a reasonable level to
                                               support HAMMER’s mission.

                                               The OIG accordingly recommended that the Richland
                                               Manager reduce HAMMER’s marketing program.
                                               Management concurred with the recommendation. Fluor has
                                               reorganized the HAMMER staff and significantly reduced
                                               and refocused the marketing program. The new
                                               organizational structure of HAMMER now dedicates more
                                               effort to working with the various Hanford contractors,
                                               including the Office of River Protection’s contractors, and
                                               minimizing the effort to attract non-Hanford users to use
                                               excess training capacity. Richland has accepted these
                                               changes and has developed performance objectives and
                                               measures to hold the contractor accountable for results based
                                               on the new marketing effort. (IG-0525)

                                               Audit Recommends Mixed-Low Level Waste Disposal
                                               Plans be Discontinued

                                               During the 1970s and 1980s, about 65,000 cubic meters of
                                               transuranic waste was sent to the Idaho National Engineering
                                               and Environmental Laboratory (INEEL) for temporary
                                               storage. In 1982, the definition of transuranic waste changed
                                               and, as a result, 25,400 of the 65,000 cubic meters of this
                                               waste was reclassified as mixed low-level waste. Since there
                                               was no disposal path for mixed low-level waste, in 1995, the
Transuranic Package Transporter (Trupact II)   Idaho Operations Office (Idaho) decided to “blend-up” its
Entering WIPP, Carlsbad, NM                    mixed low-level waste with about 39,500 cubic meters of
                                               transuranic waste so that all 65,000 cubic meters of waste




                                                                                                           19
                       At Your Service

               could be disposed of as transuranic waste at the Waste
               Isolation Pilot Plant (WIPP). In 2001, the Department issued
               a Record of Decision which designated the Hanford and
               Nevada Test Sites as disposal sites for mixed low-level waste.
               The OIG conducted an audit to determine whether Idaho
               should continue with plans to dispose of its mixed low-level
               waste at the WIPP.

               The audit determined that Idaho’s plans to dispose of mixed
               low-level waste at WIPP were inconsistent with the
               Department’s disposal strategy. Even though Hanford and
               Nevada test sites were established as designated sites for
               mixed low-level waste, Idaho continued with its plans and did
               not update and integrate its planned actions with the Office of
     economy

               Environmental Management’s disposal strategy. If Idaho’s
               mixed low-level waste is disposed of at WIPP, the
               Department may spend approximately $119 million more
               than necessary and needlessly add waste volumes to the
               WIPP facility.

               The OIG recommended that the Assistant Secretary, Office of
               Environmental Management: (1) direct the Idaho Manager to
               discontinue plans to blend-up Idaho’s mixed low-level waste
               with transuranic waste and update and integrate Idaho's
               disposal plans with the disposal path established by the
               Department; (2) develop and implement Department policy
               and procedures that require field site disposal plans to be
               updated and integrated with the Record of Decision; and (3)
               require field sites to provide written justification and cost
               comparison if plans to dispose of the mixed low-level waste
               deviate from the Department's disposal strategy.
               Management agreed to examine the suitability and
               availability of alternative treatment processes for the Idaho
               waste and agreed to integrate site disposal plans. (IG-0527)

               Inspection Identifies Environment, Safety, and
               Health Issues at the Ashtabula Environmental
               Management Project

               The Department is currently conducting
               decommissioning operations at the Ashtabula
               Environmental Management Project in Ashtabula,
               Ohio. Previously, the Department and its predecessor




20
                      At Your Service

             agencies had contracted for the manufacture of
             uranium parts at Ashtabula.

             The OIG conducted an inspection at the Ashtabula
             site during which inspectors found Department
             machinery leaking oil onto contractor owned
             property, fire and electrical hazards in Department
             leased space, Department equipment with radiological
             contamination stored in a contractor building not
             approved for radiological operations, and a
             Department storage tank leaking liquid containing
             potential radioactive contamination.
efficiency

             Based on these observations, the OIG concluded that
             certain conditions at Ashtabula needed immediate
             management attention, and issued a report alerting
             management that the conditions indicated
             questionable contract implementation and
             administration by both the contractor and Department
             officials. Management took immediate action and
             directed the contractor to inform the State of Ohio that
             nuclear safety violations had occurred. The State of
             Ohio subsequently fined the contractor for the nuclear
             safety violations. (INS-L-01-05)

             Improvements Recommended in Procurement Activities
             of Security and Emergency Operations

             The Department’s Office of Security and Emergency
             Operations (SO) officials determined that SO’s program to
             counter the threat to the Department’s security forces from
             chemical and biological attacks should include the use of
             “standardized” equipment. Therefore, SO officials initiated
             an evaluation of chemical protective gear for the purpose of
             selecting and procuring a “standard” respirator for use by
             protective force personnel at all sites.

             An OIG inspection determined that SO’s procurement of a
             large quantity of respirators did not achieve its goal of
             providing “standardized” respirators for use by protective
             force personnel Departmentwide. The OIG determined that
             not all Department organizations planned to use the
             respirators procured by SO; that SO officials did not




                                                                        21
                             At Your Service

                     adequately plan and execute the procurement; that SO
                     officials did not appropriately coordinate with all affected
                     organizations; and that SO officials procured considerably
                     more respirators than needed. Further, by using the
                     Department’s procurement office to conduct the procurement,
                     SO officials may have unnecessarily spent about $63,000.

                     The OIG recommended actions to ensure that future efforts
                     by SO to select and procure “standardized” equipment for
                     protective forces are adequately planned and coordinated, and
     effectiveness
                     that SO officials responsible for procurement of equipment
                     for protective forces are knowledgeable of, and appropriately
                     trained in, the Department’s acquisition process. Department
                     management agreed with the OIG recommendations and
                     proposed appropriate corrective action. (INS-0-01-04)

                      Effective Establishment of the NNSA
                     NNSA was established as a semiautonomous agency within
                     the Department and with the responsibility to administer the
                     Department’s critical national security activities. NNSA’s
                     mission is to provide clear and direct lines of accountability
                     and responsibility for the management and operation of the
                     nation’s nuclear weapons, naval reactors, and nuclear
                     nonproliferation activities. NNSA continues to face a
                     number of challenges as it further develops organizationally.
                     Several OIG reviews completed during this reporting period
                     addressed these challenges:

                     Substantial Savings Could be Achieved by Reassessing the
                     Need to Build a New Plutonium Immobilization Plant

                     In September 2000, the United States and the Russian
                     Federation entered into an agreement stipulating that each
                     country would irreversibly transform 34 metric tons of
                     weapons-grade plutonium into forms that cannot be used for
                     weapons purposes. As part of the United States’
                     commitment, the Department has developed plans to dispose
                     of 8.4 metric tons of the plutonium and convert 25.6 metric
                     tons into mixed oxide reactor fuel at the Savannah River Site
                     (Savannah River). In developing a process to dispose of the
                     8.4 metric tons of weapons-grade plutonium covered by the
                     agreement, as well as additional “weapons-usable”




22
                  At Your Service

          plutonium, the Department planned to immobilize the
          material by constructing a Plutonium Immobilization Plant
          (Plant) at Savannah River. The Plant is designed to accept
          plutonium and plutonium oxides and convert the plutonium
          into mineral-like forms. The estimated life-cycle cost of the
          immobilization project is about $1.5 billion in constant FY
          2001 dollars. The OIG conducted an audit to determine
          whether the proposed Plant duplicates a capability that
          already exists at Savannah River.

          The audit disclosed that the proposed Plant does not
          duplicate existing capabilities already operating at
          Savannah River. However, the Plant potentially
          overlaps with the capability of Savannah River’s FB
economy

          Line Facility (FB Line), and could duplicate the
          capability of the Treatment and Storage Facility (TSF),
          which is scheduled to be operational at Savannah River
          in September 2008. The Department's Office of Fissile
          Materials Disposition had not considered the FB Line
          or the TSF as alternatives for disposing of excess
          plutonium. There could be savings in excess of $650
          million if the Department used existing or planned
          Savannah River facilities, rather than building the
          Plant. Further, the FB Line and TSF may provide the
          Department with other alternatives to dispose of
          surplus plutonium and to satisfy the United States'
          commitment as part of the agreement with the Russian
          Federation.

          The OIG recommended that the Acting Director, Office of
          Fissile Materials Disposition, analyze the FB Line and the
          proposed TSF as alternatives to constructing the Plant.
          Department management agreed with the recommendation,
          but did not agree with the magnitude of the estimated cost
          savings because the proposed alternatives have not been
          developed to the stage that meaningful cost estimates can be
          established. Management did note, however, that it is now
          analyzing the FB Line as part of an ongoing assessment of
          the use of Savannah River facilities for plutonium
          disposition. Management intends to complete this assessment
          in January 2002. The TSF utilization study will be started in




                                                                     23
                                            At Your Service

                                    October 2002 and be completed about 6 months later.
                                    (IG-0522)

                                    Subject Pleads Guilty to Fraud Count Involving False
                                    Credentials

                                    A joint investigation with the Federal Bureau of Investigation
                                    substantiated allegations that a private citizen had attempted
                                    to manufacture NNSA credentials. The investigation
                                    determined that the subject knowingly and without lawful
                                    authority produced a false identification document; namely, a
                                    prototype of a “Federal Agent” credential, originally issued
                                    under the authority of NNSA. The credential falsely
                                    identified the subject as a “Federal Agent.”

                                    The U.S. Attorney’s Office for the District of New Mexico
                                    accepted the case for prosecution. The primary subject of the
                                    investigation pleaded guilty to one count of violating Title 18,
                                    United States Code, Section 1028, Unlawful Production of a
                                    Government Identification Document. Sentencing is
                                    pending. (I00DN006)

                                    Research and Development Work Not Authorized by the
                                    Department

                                    Lawrence Livermore National Laboratory (Livermore),
                                    which is managed and operated for the Department’s Oakland
                                    Operations Office (Oakland) by the University of California
                                    (University), has an annual research and development (R&D)
     Did you know?                  budget of about $1 billion. Past OIG audits and the General
                                    Accounting Office have questioned the national laboratories’
     The Department will spend
                                    management of R&D activities, including the laboratories’
     more than $7.7 billion (more
     than 40 percent) of its 2001   authority to do certain work. Three of these audits were
     budget on a broad range of     specific to University-managed laboratories and questioned
     R&D activities.                Department and University control over funds used for
                                    discretionary R&D projects. The OIG conducted an audit to
     Source: The President's
     Management Agenda, Fiscal
                                    determine whether Livermore was performing R&D that was
     Year 2002                      not authorized by the Department.

                                    The audit found that Livermore was performing certain R&D
                                    activities that were not authorized by the Department. For
                                    FYs 1998-2000, the OIG estimated that 194 projects at
                                    Livermore involved R&D for which there was no contractual




24
                                       At Your Service

                               authority to do the work. Livermore circumvented the work
                               authorization process by funding the R&D through overhead
                               accounts. As a result, the Department funded about $33.6
                               million of unauthorized R&D during FYs 1998-2000.

                               The OIG recommended that Oakland direct Livermore to:
                               (1) discontinue ongoing, unauthorized R&D; (2) establish
                               procedures to prevent overhead accounts from being used to
                               fund unauthorized R&D; (3) submit for review and
                               authorization a description of technical activities being
                               funded through overhead accounts; and (4) reimburse the
                               Department for the cost of unauthorized R&D. Department
                               management partially agreed with recommendations 1, 2, and
                               3 and did not agree with recommendation 4. Management’s
                               comments were not considered responsive to the
                               recommendations and issues raised in the report. In addition,
                               management did not provide a corrective action plan to
                               investigate the issues raised or take any action to prevent
                               Livermore from performing unauthorized R&D in the future.
                               (IG-0511)

                                Contract Administration
                               A significant portion of the Department’s mission is carried
Did you know?                  out by contractors (industrial, academic, and nonprofit
                               institutions) operating the Government-owned plants and
The Department employs over
110,000 contractor employees
                               laboratories under a management and operating relationship.
to perform services for the    The management and operating contractors manage a variety
Department.                    of activities, including maintaining the nuclear weapons
                               stockpile, performing research, and cleaning up radioactive
Source: Department of Energy
Annual Performance Plan for
                               and hazardous wastes. Consequently, these contracts
FY 2002                        represent the largest share of the Department’s budget.
                               Ongoing OIG reviews have disclosed continuing contract
                               management problems. In particular, weaknesses have been
                               found in the Department’s management of performance-
                               based incentives and fees at major Department contract
                               locations, as well as its administration of grant funds and
                               cooperative agreements. In previous years, the OIG reported
                               grants management as a separate challenge. Grants are issued
                               when limited Federal collaboration and participation is
                               anticipated and when a public need is served. The
                               Department funds numerous grants for scientific research and
                               development, educational endeavors, and state and local




                                                                                         25
                                                    At Your Service

                                           projects. The Department uses cooperative agreements,
                                           rather than grants, when carrying out a public purpose that
                                           will require the Department to maintain "substantial
                                           involvement" in the funded activity. Additionally, costs
                                           associated with cooperative agreements for research,
                                           development, and deployment are to be shared when the new
                                           technology is likely to benefit the recipient economically, or
                                           when required by law. The following are highlights of OIG
                                           reviews of these areas:

                                           Contractor Makes $3.5 Million Settlement with the
                                           Government

                                           Under the terms of a Civil Agreement a contractor was
                                           ordered to pay the Federal Government $3.5 million. The
                                           OIG received an allegation that a Department manufacturing,
                                           engineering, and research contractor mischarged to Federal
                                           Government contracts material and labor costs that were
                                           associated with the development of a commercial product
                                           line. It was alleged that the company falsely certified that
                                           those costs were properly charged to the Government. As a
                                           result of a joint investigation with the Defense Criminal
                                           Investigative Service, the Navy Criminal Investigative
                                           Service, and the Defense Contract Audit Agency, the
                                           contractor agreed to pay the Government $3.5 million.

                                           The Department directly received $800,000 of the $3.5
                                           million settlement. The remaining funds were divided among
                                           the Department of Justice and the Department of Defense.
                                           Also as part of the civil settlement, the contractor released its
                                           claims to $148,000 of contract funds held by the
                                           Department's National Renewable Energy Laboratory.
                                           (I98PT006)

                                           Nonproprietary Scientific Research Results Not Being
                                           Fully Collected or Disseminated to Scientific Community

                                           The $229 million Environmental Molecular Sciences
                                           Laboratory (EMSL), which opened in October 1997 as a
William R. Wiley Environmental Molecular   National User Facility, performs cutting-edge molecular
Sciences Laboratory, Pacific Northwest
National Laboratory, Richland, WA          science targeting the Department’s environmental mission.
                                           All potential users must sign a user agreement prior to
                                           utilizing the EMSL. Users engaged in proprietary research




26
                     At Your Service

             are obligated to pay the full-cost recovery rate for EMSL
             usage. Users engaged in general or nonproprietary research,
             however, are not charged, but must document and provide
             their research results to the EMSL. Facility officials must
             also ensure that these results are documented and that
             deliverables, such as technical reports, are collected and
             forwarded to the Office of Scientific and Technical
             Information (OSTI) for further dissemination to the scientific
             community. The OIG conducted an audit to determine if the
             results of nonproprietary research at the EMSL were
             collected and forwarded to OSTI.

             The audit found that operating officials at the EMSL often
efficiency

             did not collect and forward to OSTI the results of
             nonproprietary research. In fact, EMSL officials had not
             received research results or deliverables on 94 of 153
             completed research projects. Since these deliverables were
             not received, they could not be forwarded to OSTI. Even
             when deliverables were received, however, EMSL officials
             often did not send them to OSTI. The OIG found that
             Battelle Memorial Institute (Battelle), a Department
             management and operating contractor, responsible for
             operating the EMSL, had received over 700 deliverables, but
             had forwarded just 60 to OSTI. The contract between the
             Richland Operations Office (Richland) and Battelle contained
             provisions to collect and forward all deliverables to OSTI. In
             spite of the contract provisions, Battelle developed a
             management system that did not identify deliverables that
             were due. Further, Battelle, EMSL, and Richland officials
             alike claimed that they did not fully understand the
             requirements for sending research results to OSTI. Without
             full dissemination of research results to the scientific
             community, future researchers may not benefit from
             discoveries. Therefore, the Department may not receive full
             value from the $48 million it costs annually to operate the
             EMSL.

             The OIG recommended that the Richland Manager: (1)
             ensure that Richland, Battelle, and EMSL officials are fully
             informed of the requirements for the operation of a National
             User Facility and collect all deliverables and forward to OSTI
             those that meet the needs of OSTI; (2) establish and use
             performance measures to evaluate EMSL’s role in collecting




                                                                        27
                                               At Your Service

                                       and forwarding deliverables to OSTI and tie the performance
                                       measure to the management fee; and (3) direct Battelle to
                                       establish a project management system that will track the life-
                                       cycle of EMSL nonproprietary research. Department
                                       management agreed with the OIG recommendations and
                                       provided a corrective action plan to implement the
                                       recommendations. (IG-0526)

                                       Government Contractor Reimburses the Department
                                       $242,365 for Unallowable Costs

                                       The OIG conducted an investigation into irregularities with
                                       costs claimed by a Department contractor under a
                                       procurement system known as Authority for Payment (AFP).
                                       The OIG investigation raised questions about expenditures by
                                       the contractor utilizing the AFP system, specifically for
                                       unallowable costs such as magazine subscriptions, food,
                                       banquets, alcohol, leased facilities, non-competed accounting
                                       firm fees, conventions, and entertainment.

                                       In response to an OIG Administrative Report to Management,
                                       the contractor: (1) reimbursed the Department $242,365 in
                                       unsupported costs relating to alcohol, entertainment, gifts,
                                       and procurement card expenses that were incorrectly charged
                                       to the Department; (2) improved its policy for magazine
                                       subscriptions; (3) will track costs subject to ceiling
                                       limitations; and (4) incorporated Department Order 1103
                                       pertaining to “Conference Management” into its new contract
                                       with the Department. (I97AL002)

                                              Performance-Based Contracts:

                                       Performance-Based Incentives Not Being Effectively Used
     Did you know?                     to Improve Contractor Performance
     The total new performance –
     based service contracts awarded
                                       The OIG conducted an audit to determine whether the
     in FY 2001 was $6.8 billion.      Department’s use of performance-based incentives has
                                       resulted in improved contractor performance at selected
     Source: Department of Energy      Department field sites. The audit found that the Department
     PADS System
                                       did not utilize performance-based incentives in a manner that
                                       would consistently result in improved contractor
                                       performance. Problems were identified with 12 of 19
                                       performance-based incentives reviewed at the Savannah




28
                         At Your Service

                River Site and the Kansas City and Oak Ridge Y-12 Plants.
                Some performance incentive fees were increased without a
                corresponding increase in performance expectations. In other
                cases, the “challenge” to the contractor in the form of the
                performance standard was lowered while the monetary
                incentive remained unchanged. In all cases, these actions
                were taken without satisfactory explanation. Further, some
                incentives were established after the expected outcome had
                been achieved.
effectiveness
                The OIG review also determined that field sites were not
                fully evaluating past performance when negotiating recurring
                incentives and were not using appropriate processes to
                modify performance metrics. Furthermore, the Department
                had not established a formal review and approval process for
                Program Offices to ensure that negotiated performance-based
                incentives would improve contractor performance. As such,
                the OIG questioned whether the Department could have
                better used $5.3 million provided from 1997 to 2000 for the
                12 performance-based incentives with which the OIG found
                problems.

                The OIG recommended that: (1) the Department’s
                Acquisition Guide be revised to address the conditions noted
                in the audit report; and (2) parallel program-specific guidance
                be developed by the Offices of Environmental Management
                and Defense Programs. Department management disagreed
                with the OIG finding and recommendations, asserting that no
                requirement existed for individual incentives to improve
                contractor performance, and that only documentation issues
                had been identified. (IG-0510)

                Performance-Based Contract Incentive Program
                Needs Improvement

                As part of its environmental remediation responsibility, the
                Department’s Office of River Protection (ORP) established
                26 performance-based contract incentives (PBCIs) that
                provided its management and operating contractor the
                opportunity to earn incentive fees totaling about $19.4
                million. Department guidance states that it is through the use
                of performance-based contracting concepts that improved
                contractor performance and greater accountability will be




                                                                            29
                       At Your Service

               realized. The OIG conducted an inspection to determine if
               ORP’s FY 2000 PBCIs effectively implemented the
               Department’s contract reform goals of incentivizing enhanced
               contractor performance and assuring greater accountability.

               The inspection concluded that ORP officials need to improve
               the administration and effectiveness of their PBCI program.
               Specifically, PBCIs awarded by ORP did not always
               challenge the contractor to achieve higher levels of
               performance and did not always focus on high priority tasks.
               Also, internal control weaknesses adversely impacted the
               ability of ORP management officials to effectively administer
               their PBCI program. These weaknesses included a lack of
               formal quality acceptance criteria, as well as a lack of
     economy

               required justifications for establishing certain incentives.

               The OIG recommended that the ORP manager ensure that:
               (1) future performance-based contract incentives are offered
               to the contractor only for performance of work that enhances
               critical path site remediation efforts or that motivates the
               contractor to achieve higher levels of performance; (2) future
               performance-based contract incentives contain a quality
               assurance standard for acceptance of work products; and (3)
               prior to the incentives being approved by ORP officials,
               forms documenting the basis for future performance-based
               contract incentives contain all information required by
               internal ORP guidelines. Management generally agreed with
               the OIG recommendations and described corrective actions it
               will take to implement them. (IG-0506)

               Operations Office Did Not Require Contractor to Meet
               Performance Objectives

               In December 1997, the Oak Ridge Operations Office (Oak
               Ridge) awarded a $2.5 billion performance-based
               management and integration contract to Bechtel Jacobs
               Company LLC (Bechtel Jacobs) for environmental
               remediation activities in Oak Ridge, Tennessee; Paducah,
               Kentucky; and Portsmouth, Ohio. Under the terms of the
               contract, Bechtel Jacobs was to receive incentive fees for
               accomplishing performance objectives negotiated before the
               start of the performance period, in this case prior to the
               beginning of each fiscal year. The OIG conducted an audit to




30
                     At Your Service

             determine whether Oak Ridge required Bechtel Jacobs to
             meet performance objectives that were established before the
             start of the performance period.

             The audit found that Oak Ridge had not established all
             contractor performance objectives prior to the start of the
             performance period and had not required the contractor to
             meet all previously established performance objectives.
             Specifically, Oak Ridge: (1) did not “incentivize”
             performance objectives in FY 1998; (2) did not finalize
             performance objectives before the start of FYs 1999 and
             2000; and (3) modified performance objectives to reduce
             expectations during each year. Furthermore, Oak Ridge did
efficiency

             not follow Department procedures for developing incentive
             fees, and did not develop plans for making compensating
             adjustments to fees to reflect performance objectives which
             were lowered during the period. Oak Ridge paid Bechtel
             Jacobs $6.2 million in incentive fees for FYs 1999 and 2000
             performance, even though the contractor did not meet the
             initial performance expectations directly tied to the fees.

             The OIG recommended that the Manager, Oak Ridge,
             implement the Performance Evaluation Plan, and: (1)
             finalize performance objectives before the beginning of each
             performance period; (2) ensure that incentive fees are not
             increased after the start of the period without requiring
             increased performance; (3) ensure that incentive fees are
             decreased or not paid when performance requirements are
             decreased or not met; and (4) develop plans for reallocating
             incentive fees when performance requirements change.
             Management concurred with the finding and
             recommendations and stated that it was revising its current
             Performance Evaluation Plan to include provisions to
             address the OIG’s recommendations. (IG-0503)

             Improvements in Documenting Fee Negotiations
             Recommended

             Over the last decade, the Department has been involved in a
             major effort to reform its contracting practices, including
             efforts to increase the accountability and enhance the
             performance of its facility management contractors. While
             implementing its overall strategy, the Department increased




                                                                       31
                             At Your Service

                     fees available to its facility management contractors,
                     including contractors managing sites primarily devoted to
                     environmental restoration activities. This approach was
                     designed to attract superior firms to perform the cleanup
                     work and to provide greater financial incentives to encourage
                     improved performance. An OIG audit was conducted to
                     determine whether fee pools made available to three specific
                     contractors at Rocky Flats, Oak Ridge, and Hanford were
                     commensurate with risks and responsibilities assumed.
     effectiveness
                     The OIG was unable to determine whether fees made
                     available to the three site contractors were fully
                     commensurate with the risks and responsibilities assumed.
                     The OIG found that there were many complexities in
                     determining applicable fees, and that the documented record
                     in certain circumstances was not adequate to make a
                     determination. In addition, the Department used a different
                     negotiation methodology for calculating available fees at the
                     three locations.

                     The OIG recommended that the Director, Procurement and
                     Assistance Management ensure that the negotiation of fees be
                     thoroughly documented so that the Department’s rationale
                     supporting its fee strategy is clear. Department management
                     disagreed with the OIG assessment and indicated that current
                     procedures are adequate. (CR-B-01-01)

                     The Department Needs to Maximize the Use of its Cost-
                     Recovery Authority to Enhance the Super Energy Savings
                     Performance Contracts

                     An OIG audit found that the Department did not fully recover
                     the cost of providing assistance to other Federal agencies and
                     did not use the funds it recovered from other Federal agencies
                     to achieve greater energy efficiency. The Department did not
                     develop an appropriate pricing strategy for recovering costs
                     and did not formulate a plan for spending the funds it
                     recovered. As a result, the Department, as well as other
                     Federal agencies, may not meet their long-term energy-
                     savings goals because they will miss opportunities to use
                     private financing mechanisms to fund energy-savings
                     projects.




32
                                                 At Your Service

                                        The OIG recommended that the Director, Federal Energy
                                        Management Program: (1) implement a cost-recovery
                                        strategy that includes estimating, tracking, billing and
                                        collecting all costs for each project; and (2) develop and
                                        implement a plan to use recovered funds to aggressively
                                        promote super energy savings performance contracts.
                                        Management generally agreed with the recommendations and
                                        identified a number of corrective actions that will, if
                                        successfully implemented, assist the Department in furthering
                                        energy-savings initiatives. (IG-0499)

                                                  Grants:

                                        Small Business Innovation Research Phase II Grantees
                                        Incur Unallowable Costs and Do Not Meet Cost Sharing
                                        Requirements

                                        The Small Business Innovation Development Act of 1982
Did you know?                           established the Small Business Innovation Research (SBIR)
                                        Program to assist small businesses in developing new ideas
Under the President’s Expanded          and technology. Under this Program, the Department sets
Electronic Government initiative,
Federal Agencies' use of the Web will
                                        aside 2.5 percent of its research and development budget for
be improved to allow applicants for     grants to small businesses, using a phased approach.
Federal grants to apply for and         Currently, the Department awards about $60 million annually
ultimately manage grant funds online    in Phase II grants. The OIG performed an audit to determine
through a common web site.
                                        whether the Department obtained assurance that costs
Source: The President’s Management      claimed by SBIR Phase II grantees were incurred in
Agenda, FY 2002                         accordance with acquisition regulations and met cost sharing
                                        requirements.

                                        The audit found that the Department had not appropriately
                                        verified that all costs claimed by SBIR Phase II grantees were
                                        allowable and were used for developing the specific
                                        innovations described in the relevant grant documents. The
                                        Department generally limited its cost reviews to pre-award
                                        evaluations of the costs proposed in the applications
                                        submitted by grantees. It did not place sufficient emphasis on
                                        post-award reviews of actual costs. As a result, the
                                        Department reimbursed grantees for questionable costs—for
                                        example, three grantees did not provide any support for about
                                        $2.4 million in claimed costs. Further, the Department did
                                        not verify that grantees fully contributed their portion of cost




                                                                                                    33
                       At Your Service

               sharing, which were requirements of the grants. Ten SBIR
               Phase II grantees reported providing $2.4 million less in cost
               sharing than required by the terms of the relevant grant
               agreements.

               The OIG recommended that, for SBIR Phase II grants, the
               Managers of the Chicago and Oakland Operations Offices, in
               coordination with the SBIR Program Manager: (1) resolve the
               cost sharing shortfalls and questionable costs identified in the
               OIG audit and recover costs determined to be unallowable;
               (2) implement grant closeout procedures to include
               verification that costs claimed by grantees are allowable and
               cost sharing requirements are met; and (3) establish
               performance measures, in accordance with GPRA, that are
     economy

               relevant to post-award reviews of costs and cost sharing.
               Department management agreed with the OIG
               recommendations. The Chicago Operations Office
               immediately initiated corrective actions and the Oakland
               Operations Office plans to initiate corrective actions in
               October 2001. (IG-0521)

               Numerous Final and Interim Grant Deliverables Not
               Being Received as Specified in Grants

               As of September 30, 1999, the Albuquerque Operations
               Office (Albuquerque) administered 75 grants with a total
               value of $509 million. These grants funded activities such as
               scientific research and development, education, and state and
               local projects. Albuquerque personnel are responsible for
               ensuring that activities are in accordance with the grant terms
               and verifying the proper expenditure of funds. These
               responsibilities are accomplished through a review and
               analysis of various technical and financial reports called
               deliverables. The OIG conducted an audit to determine
               whether Albuquerque was receiving the deliverables
               specified in its grants.

               The audit found that Albuquerque was not receiving many of
               the deliverables specified in its grants. Neither final nor
               interim deliverables were received for many of its grants
               awarded for research and development, education, and state
               and local activities. This occurred because Albuquerque did
               not have formal procedures in place to identify deliverables




34
                      At Your Service

             that were due. The lack of procedures impacted
             Albuquerque’s ability to initiate follow-up actions when
             deliverables were overdue. By not having the procedures to
             monitor a grantee's performance and financial status,
             Albuquerque cannot fully exercise its fiduciary responsibility
             over the expenditure of public funds.

             The OIG recommended that the Albuquerque Manager:
             (1) develop and implement formal procedures to identify
             when deliverables are due; (2) initiate follow-up action when
             deliverables are not received; (3) issue notification letters if
             the initial follow-up action fails; (4) carry out the remedies
             allowed in Financial Assistance Letter 98-2; and (5) develop
efficiency

             performance measures related to the receipt and follow-up of
             interim and final deliverables. Management concurred with
             the finding and all recommendations and provided a
             corrective action plan. (IG-0524)

             Employees of Non-Profit Organization Convicted for
             Embezzling Community Development Funds Under
             Financial Assistance Awards with the Department

             An OIG investigation resulted in the indictment of three non-
             profit corporation officials and two of the officials’ wives for
             embezzling funds from community development grants
             issued by the Department’s Savannah River Operations
             Office. The OIG initiated an investigation based upon
             allegations that managers of a non-profit corporation,
             operating under grants from the Department, devised a plan
             to setup fictitious shell companies to fraudulently bill the
             grants. The case was referred to an Assistant U. S. Attorney
             (AUSA) for the District of South Carolina and accepted for
             criminal prosecution.

             As a result of the OIG investigation, the accountant for the
             non-profit corporation was indicted on two counts of Title 18,
             U.S.C., Section 666 (Theft from a Program Receiving Federal
             Funds) and 16 counts of Title 18, U.S.C., Section 1956
             (Money Laundering). Pursuant to a plea agreement
             (Agreement), the accountant pleaded guilty to one count of
             Title 18 U.S.C., Section 666 and was sentenced to 4 months
             imprisonment, 4 months home detention, 3 years supervised
             probation, fined $2,000, and ordered to pay $42,000 in




                                                                          35
                             At Your Service

                     restitution to the Department. Additionally, the corporation's
                     General Manager, another corporation employee, and their
                     spouses were also indicted on one count each of Title 18,
                     U.S.C., Section 666, and Title 18, U.S.C., Section 371
                     (Conspiracy) for embezzling $27,030 in grant funds.
                     Pursuant to an Agreement and in exchange for the AUSA
                     dropping the charges against his wife, the General Manager
                     agreed to reimburse the Department $27,030. The remaining
                     employee and his wife were placed into the Pre-Trial
                     Diversion Program for one year and they were each ordered
     effectiveness
                     to repay the Department $5,723.50. (I96SR003)

                            Cooperative Agreements:

                     Audit Identifies Deficiencies in Awarding Cooperative
                     Agreements

                     Each year the Department of Energy spends over $16 billion
                     to obtain goods and services from private sector companies,
                     non-profit organizations, and other government entities. The
                     acquisition system established to manage these expenditures
                     includes contracts, grants, and cooperative agreements. At
                     the end of FY 2000, the Department maintained 1,118
                     cooperative agreements valued at $9 billion. Cooperative
                     agreements are only to be used to carry out a broad public
                     purpose, such as to support basic research or to stimulate new
                     technology development. The OIG performed an audit to
                     determine whether the Department awarded cooperative
                     agreements in accordance with acquisition regulations and to
                     identify whether cost sharing provisions were used
                     consistently.

                     In 9 of 42 cases reviewed, the OIG found that cooperative
                     agreements were used to obtain services for the direct benefit
                     of or use by the Department rather than to pursue a broad
                     public purpose. The Department also appeared to forego
                     several opportunities for cost sharing. During the audit, the
                     OIG discussed with the Office of Procurement and Assistance
                     Management (Procurement) and responsible program
                     officials the OIG’s assessment that certain cooperative
                     agreements were used inappropriately or that opportunities
                     for cost sharing had been missed. The OIG suggested that the




36
                                                    At Your Service

                                           Department develop and implement additional guidance for
                                           choosing the appropriate acquisition instrument and ensure
                                           that the decision to waive statutory and regulatory cost
                                           sharing requirements is fully explained and documented.

                                           Although management did not agree with the OIG assessment
                                           in all cases, Procurement agreed that additional guidance was
                                           necessary. In September 2001, the Department developed
                                           draft guidance for program officials to determine the
                                           appropriate award instrument to use. The OIG reviewed the
                                           draft guidance, which will be issued as a Financial Assistance
                                           Letter, and concluded that when implemented it will
                                           successfully address the concerns raised in the OIG report.
                                           (CR-L-01-09)

                                            Energy Supply/Demand Technology
Did you know?

The Department is working to develop
                                           The Department leads the nation in the effort to develop
renewable energy technologies such         affordable advanced clean energy for the 21st Century and to
as solar energy systems. In FY 2000,       accelerate its acceptance and use, both nationally and
the Department facilitated the             internationally. This leadership is organized around five
installation of well over a targeted
                                           energy sectors: (1) buildings, (2) industry, (3) transportation,
20,000 systems, bringing the total
number of installed systems to over        (4) power generation and delivery, and (5) Federal
100,000. The end objective is to           Government facilities. Partnerships with government entities
install one million solar energy systems   and the private sector enable the Department to better
in U.S. buildings by FY 2010.
                                           leverage the Federal investment in the research, development
Source: Department of Energy,
                                           and deployment of efficient and clean energy technologies
Performance and Accountability             that meet the nation’s energy needs, enhance the
Report, FY 2000                            environment, and strengthen national competitiveness. A
                                           recent OIG review was done of the Department’s commercial
                                           biomass-to-ethanol program.

                                           The Department Does Not Meet Goal to Build a Full-
                                           Scale Biomass Production Facility

                                           The Department has the strategic objective of reducing the
                                           vulnerability of the U.S. economy to disruptions in energy
                                           supplies. As one way of meeting this objective, the
                                           Department has had a biomass-to-ethanol conversion
                                           program for several years. Working under the Assistant
                                           Secretary for Energy Efficiency and Renewable Energy (EE),
                                           the Office of Fuels Development (OFD), which manages the
                                           biomass program, had a goal to build a full-scale commercial




                                                                                                        37
                       At Your Service

               biomass production facility by 2000. To meet its goal, OFD
               awarded financial assistance to two firms through cost-
               sharing cooperative agreements awarded by the Golden Field
               Office during 1997 and 1998. One firm received $4 million
               and the other received $10.95 million. The OFD indicated
               that these were the only two awards that could have led to
               meeting its program goal. The OIG conducted an audit to
               determine whether the Department is meeting its biomass
               program goal.

               The Department did not meet its biomass program goal to
               have a full-scale commercial production facility built by
               2000. Construction of such a facility has not been started and
               it is unlikely that construction will begin soon because earlier
     economy

               design and site preparation targets have not been met.
               Despite assertions that their technologies were proven and
               ready for commercial application, neither company has
               fulfilled the representations contained in their proposals or
               the terms of their financial assistance awards. Although
               much of the funding was provided through congressional
               earmarks, in the OIG’s judgment, the Department was not
               precluded from exercising basic performance conditions. The
               Department did not meet its goal because it did not solicit
               competitive proposals before making any awards, implement
               recommendations made by merit reviewers of the two
               companies’ proposals, or fully evaluate the firms’ financial
               capability prior to awarding funds. As a result, the
               Department has spent nearly $15 million without a
               production facility on the horizon, and the Department will
               not meet its FY 2001 Performance Plan target of producing 6
               million gallons of ethanol from biomass.

               The OIG recommended that the Assistant Secretary for EE
               ensure that alternative fuels project officials: (1) address
               merit reviewer concerns and recommendations prior to
               award, and verify the ability of financial assistance applicants
               to meet project financial commitments; and (2) restrict
               project funding when recipients do not comply with award
               terms, including withholding, suspending, or terminating
               funding. Department management agreed with the
               recommendations, but disagreed with the report’s conclusions
               regarding commercialization and risk reduction, earmarks,
               and the merit review process. EE agreed to examine its




38
                                                      At Your Service

                                             policies and practices relative to the award, monitoring, and
                                             termination of financial assistance. (IG-0513)

                                              Property Controls and Asset Inventories
                                             For several years the OIG has been reporting, through the
     Did you know?                           Federal Managers’ Financial Integrity Act process, that the
                                             Department has extensive inventories of nuclear and non-
     The Department is the landlord
     of 2.4 million acres of land and over
                                             nuclear materials that may no longer be necessary due to
     20,000 facilities throughout the        mission changes. The OIG has been concerned that funds
     United States.                          spent to store, secure, and handle these materials could be put
                                             to better use and that the potential exists for safety and health
     Source: Department of Energy
     Strategic Plan, September 2000
                                             concerns. The OIG continues to report significant
                                             deficiencies in controls over Government property, as
                                             indicated in the following summaries.

                                             The Department Could Save About $1.5 Million Per Year
                                             by Transferring Land No Longer Needed

                                             In a January 1997 report, the OIG identified approximately
                                             138,000 acres of land at the Hanford Site (Hanford) which
                                             were not essential to carrying out the Department’s mission.
                                             In June 2000, the President created the 195,000 acre Hanford
                                             Reach National Monument (Monument) within the
                                             boundaries of the Department’s Hanford Site near Richland,
                                             Washington. Although the Department maintains
                                             administrative control and jurisdiction over the land within
                                             the Monument, the Department of Interior’s U.S. Fish and
                                             Wildlife Service manages about 84 percent of the land. The
                                             OIG conducted an audit to determine if the Department
                                             should retain administrative control of land within the
Hanford Reach National Monument,             Monument.
within the boundaries of the Department's
Hanford Site
                                             The audit disclosed that it was not in the Department’s best
                                             interest to retain administrative control of all land within the
                                             Monument. The OIG identified approximately 143,000 acres
                                             of land that could be transferred to the Department of Interior
                                             without adversely impacting operations at Hanford. In fact,
                                             the land identified for transfer includes areas which had
                                             previously been identified as nonessential for carrying out the
                                             Department’s mission. Department officials stated that they
                                             were retaining administrative control of the land to provide
                                             safety buffers for Hanford operations. Current conditions at




                                                                                                           39
                           At Your Service

                  Hanford do not support this rationale. Further, available
                  documentation suggested that the officials had concluded that
                  retaining the land allowed the Department to provide
                  enhanced financial assistance to local governments. The OIG
                  found that by transferring administrative control of the
                  143,000 acres, the Department could save about $1.5 million
                  per year in payments in lieu of taxes. In the OIG’s view, it
                  might well be more productive to use these funds to expedite
                  the environmental remediation effort at Hanford.

                  The OIG recommended that the Manager, Richland
                  Operations Office, identify specific Monument lands that
                  could be transferred without adversely impacting Department
     efficiency

                  operations, and request or initiate a transfer of the land to the
                  Department of Interior. Department management partially
                  agreed with the OIG recommendation and is currently
                  conducting a detailed analysis to review the costs and
                  operational impacts of transferring portions of the Monument
                  to the Department of Interior. However, management did not
                  agree with the proposed transfer of about 58,000 acres at this
                  time. Department management also disagreed with the OIG’s
                  cost savings estimate, stating that cost savings to the Federal
                  Government as a whole are unknown and cannot be
                  determined until a full analysis has been completed.
                  (IG-0514)

                  The Department’s Use of Atomic Energy Act Authority in
                  Land Sale is Questioned

                  Under the Atomic Energy Act of 1954 (Act), the Department
                  may sell land in the performance of identified programmatic
                  functions. In February 2001, the Department sold 182 acres
                  of land in Oak Ridge, Tennessee, for $54 per acre to a private
                  development company. The property provides river access to
                  an adjoining 1,217-acre parcel that the developer acquired for
                  a new housing development. The purchase of the 1,217-acre
                  parcel was contingent upon the developer acquiring the
                  Department’s river access property. The Department sold the
                  land under special authorities granted in the Act. By
                  invoking these special authorities, the Department was not
                  required to follow the standard Federal practices for property
                  sales, such as advertising, seeking competitive bids, and




40
                        At Your Service

                obtaining independent appraisals to establish the property’s
                fair market value.

                An OIG audit was conducted to determine if the sale of land
                was an appropriate use of the special authorities granted
                under the Act. The OIG found that while the Department had
                the legal authority to conduct the sale of land to a private
                developer, this action was not an appropriate use of this
                authority. Although the Act gives the Department authority
                to sell land in the performance of a programmatic function
effectiveness
                without regard to standard Federal practices, in the OIG’s
                judgment, this sale did not meet those requirements. The
                Department invoked the authority of the Act because it has
                broadly interpreted what it defines as a programmatic
                function under the Act. Further, the Department sought to
                facilitate the sale to the “preferred” purchaser. As a result,
                there was no assurance that the land was sold at fair market
                value and in the best interests of the Government.

                The OIG recommended that the Manager, Oak Ridge
                Operations Office, follow standard Federal practices for the
                sale of land not directly involving programmatic functions
                instead of invoking the special authorities granted under the
                Act. Management did not concur with the finding and
                recommendation. It contended that all the actions taken were
                within the Department’s authority. (IG-0502)

                Department Contractor Needs to Strengthen
                Management of Stocked Inventory

                The Department’s management and operating contractor at
                Savannah River, Westinghouse Savannah River Company
                (Westinghouse), manages the majority of the Department’s
                stocked inventory at Savannah River. As of March 2001,
                Westinghouse maintained about 4.1 million items in its
                stocked inventory, with an acquisition value of about $64
                million. Westinghouse estimated the cost directly related to
                storing these items to be about $700,000 annually. The OIG
                conducted an audit of Westinghouse’s management of the
                stocked inventory at Savannah River.

                The audit found that Westinghouse was not adequately
                managing its stocked inventory. Westinghouse had not




                                                                           41
                        At Your Service

               identified and disposed of items that: (1) exceeded
               “maximum” inventory levels; and (2) had no usage during the
               last 10 years. Westinghouse did not have procedures in place
               to calculate the amount of stocked inventory necessary for the
               site’s mission. Further complicating the situation,
               Westinghouse accounting procedures penalized users for
               identifying and disposing of excess stocked inventory.
               Specifically, when items were declared excess, removed from
               inventory, and disposed of, they had to be charged against a
               specific user’s budget account. Thus, the users had little or
               no incentive to ensure that excess inventories were properly
               addressed. Westinghouse incurred about $116,000 annually
               to store about $9 million in stocked inventory that does not
               appear to be needed. In addition, the OIG could not
     economy

               determine the potential savings associated with the disposal
               of the items that appeared to be excess because Westinghouse
               did not track revenues or expenses related to excess stocked
               inventory.

               The OIG made a series of recommendations designed to
               improve Westinghouse’s management of stocked inventory.
               Department management agreed with the recommendations
               and agreed to initiate corrective actions. (IG-0508)

               Inventory Controls for Firearms Stored at Department
               Facilities Need Improvement

               The OIG conducted an inspection to determine the adequacy
               of Office of Security and Emergency Operations (SO)
               inventory controls for selected firearms stored at its facilities
               at Headquarters and the Nonproliferation and National
               Security Institute (NNSI). The inspection concluded that
               improvements are needed in inventory controls for firearms
               that are stored at the SO Headquarters facility and the NNSI.
               All of the firearms in the OIG sample inventory at both
               facilities were physically accounted for. However, some
               firearms at the Headquarters facility were not on the SO
               Headquarters inventory list and others had numbers that did
               not match the serial numbers on the list.

               Additionally, SO officials had not yet reconciled
               discrepancies of firearms stored at the facility identified
               during a 1998 inventory by the Office of Management and




42
                      At Your Service

             Administration, now the Office of Management, Budget and
             Evaluation. At NNSI, incoming excess firearms shipments
             had not been inventoried within the timeframes established
             by NNSI internal procedures. In addition, NNSI officials did
             not document the presence or integrity of tamper indicating
             devices or seals that were required to be on shipping
             containers of excess firearms sent to the facility.

             The OIG identified several inventory control issues similar to
             those identified previously in the 1996 OIG “Special Audit
             Report on the Department of Energy’s Arms and Military-
             Type Equipment.” The recent OIG review indicated that
             greater attention is required by management officials to
efficiency

             ensure effective corrective actions are implemented.

             The OIG recommended a series of corrective actions
             designed to strengthen inventory controls for selected
             firearms stored at SO Headquarters and the NNSI. The OIG
             also recommended that the Director, Office of Management,
             Budget and Evaluation, initiate actions to quickly resolve
             discrepancies identified by inventories. Management
             concurred with the OIG findings and recommendations.
             (IG-0517)

             Fixed Assets Database Used to Track Government
             Property Not Accurate

             Sandia National Laboratories (Sandia) is responsible for
             significant quantities of Department-owned personal
             property. Personal property is generally property of any kind,
             excluding real estate and permanent fixtures. To meet its
             responsibility, Sandia uses a Fixed Assets Database. Property
             meeting established criteria is assigned a property control
             number (property tag) and is to be included in the database.
             Property in the database is generally segregated as sensitive
             (i.e., computers and cameras) or non-sensitive (i.e.,
             laboratory equipment). Once in the database, the location of
             each item is to be tracked until ultimate disposal. The
             property in the database is physically located at various sites,
             including overseas locations. As of December 2000, the
             database contained about 53,000 items valued at
             approximately $1.1 billion. The OIG conducted an audit to
             determine if Sandia’s Fixed Assets Database was accurate.




                                                                         43
                              At Your Service

                     The audit found that Sandia’s Fixed Assets Database was not
                     accurate. All property required to be included was not, and
                     property that was listed could not always be located. This
                     occurred because the actions of property coordinators were
                     not effective in ensuring the database was complete and
                     updated as necessary, and inventory validation procedures
                     used by Sandia were questionable. As a result, the OIG
                     estimated that Sandia was not tracking between 6,111 and
                     19,501 property items, and the Department cannot be assured
                     that inventories using information from the database were
     effectiveness
                     accurate.

                     The OIG recommended that the Manager, Albuquerque
                     Operations Office, require Sandia to: (1) consolidate all the
                     duties and responsibilities of property coordinators in a single
                     document; (2) develop an action plan to ensure the database
                     is accurate; (3) develop an inventory methodology that
                     includes the use of reverse samples (the tracing of property
                     back to the database) and an objective methodology to
                     validate all verification memorandums; and (4) develop
                     performance measures to ensure the accuracy of the Fixed
                     Assets Database. Department management agreed with
                     recommendations 1, 2, and 4. Albuquerque partially
                     concurred with recommendation 3; however, proposed
                     actions meet the intent of the recommendation. (IG-0523)




44
                                                                               At Your Service



                                                                     T          his Section of the Report includes other noteworthy
Other Significant Accomplishments

                                                                     OIG accomplishments, such as: congressional responses; the
                                                                     OIG’s review of the Department’s performance measures; the
                                                                     results of significant investigative cases; and OIG Qui Tam
                                                                     and Intelligence activities.

                                                                     Congressional Responses

                                                                     The OIG remains committed to responding to and working
                                                                     with the Congress and congressional staff. The OIG received
                                                                     18 requests for information from Congress, provided
                                                                     information in 29 instances to Congress, and briefed
                                                                     Committee staff on 8 occasions. As a result of congressional
                                                                     requests, the OIG completed the following reviews:

                                                                     The Department’s Performance Measures Need Refinement

                                                                     On April 5, 2001, the Chairman, Committee on Government
                                    Did you know?                    Reform of the U.S. House of Representatives, requested
                                                                     information on the Department’s implementation of the
                                    Agency Inspectors General
                                    review the progress of their
                                                                     Government Performance and Results Act (Results Act).
                                    agency’s implementation of       Specifically, the OIG was asked to identify the 10 most
                                    the Results Act to identify      significant performance measures contained in the
                                    opportunities to improve the     Department’s performance report and the extent to which the
                                    Act’s implementation.
                                                                     data or information underlying the measures is valid and
                                                                     accurate. Additionally, the OIG was to determine whether the
                                                                     measures provided useful indicators of performance.
                                                                     Accordingly, the OIG examined the Department’s Fiscal Year
                                                                     2000 Performance and Accountability Report (Accountability
                                                                     Report) and evaluated whether it generally complied with the
                                                                     requirements of the Results Act. After assessing the specific
                                                                     measures in this report, the OIG selected the 10 performance
                                                                     measures that most closely paralleled the major management
                                                                     challenges documented in the OIG’s November 2000 report,
                                                                     Management Challenges in the Department of Energy
                                                                     (IG-0491).

                                                                     The Department has made progress in implementing the
                                                                     Results Act. For the last 3 years, it has issued a




                                     Additional information on the OIG, including the full text of its public reports and Department
                                     management’s comments, can be found on the OIG website – www.ig.doe.gov.                          45
                                                   At Your Service

                                           comprehensive Performance and Accountability Report with
                                           established goals designed to define the level of performance
                                           to be achieved by each program. In addition, the Department
                                           has worked to incorporate performance goals and objectives
                                           into its management contracts. However, the OIG identified
                                           problems with the usefulness and completeness of the
                                           performance measures and the validity and accuracy of some
                                           of the results reported. Specifically: (1) several measures
                                           were not objective or quantifiable; (2) critical measures
                                           relating to some of the Department’s major challenge areas
                                           were not present; and (3) performance results reported for the
                                           selected measures were not always valid.

                                           To improve its performance management reporting process,
                                           the OIG suggested that the Department: (1) include only
                                           performance measures that are specific, quantifiable, and
                                           relevant; (2) develop measures that address each of the
                                           agency’s management challenges; and (3) ensure that results
                                           reported represent accurate information and true
                                           accomplishments. Officials in the Department’s Office of
                                           Chief Financial Officer were receptive to the OIG suggestions
                                           and agreed that further refinement of performance measures
                                           was needed. (IG-0504)

                                           Inquiry into Alleged Bias in the Evaluation of the Suitability
                                           of Yucca Mountain

                                           In response to concerns raised by United States Senator Reid
                                           and former Secretary of Energy Richardson, the OIG
                                           conducted an inquiry into allegations of potential bias within
                                           Department and contractor operations during the evaluation of
                                           Yucca Mountain as the site for the disposal of the Nation’s
                                           high-level nuclear waste and spent nuclear fuel.

                                           The OIG found several written statements in key Yucca
                                           Mountain evaluation documents that could be considered by
                                           an impartial observer to be prematurely conclusive, or
 Aerial View—South End of Yucca            inappropriately advocating a position by the Department or its
 Mountain, Nevada Test Site, Mercury, NV
                                           contractors. The OIG could not, however, substantiate
                                           concerns that bias compromised the integrity of the site
                                           evaluation process.




46
                                                At Your Service

                                       The OIG review did disclose several additional matters that
                                       the Department needs to consider as it proceeds with the
                                       evaluation of the Yucca Mountain site. Specifically, several
                                       witnesses were critical of a Department or contractor position,
                                       report, or process relating to Yucca Mountain.

                                       The OIG recommended that the Department’s senior
                                       managers: (1) re-affirm the commitment to a site suitability
                                       evaluation process which is objective, unbiased, and based on
                                       the best possible science; and (2) review Department and
                                       contractor processes to ensure that this objective is faithfully
                                       executed. (IO1HQ005)

                                       Qui Tams

                                       The OIG has been instrumental in assisting the Department of
Did you know?                          Justice (DOJ) in Qui Tam cases in which a citizen sues on
                                       behalf of the Federal Government alleging false claims
The False Claims Act prohibits any
person from “knowingly” presenting
                                       against the United States. The OIG is currently working with
“a false or fraudulent claim for       the DOJ on 26 Qui Tam lawsuits involving alleged fraud
payment or approval” to the Federal    against the Government in the amount of approximately $135
Government. The Act authorizes         million. In addition, the Department will receive a payment
individual citizens to bring private
suits, referred to as Qui Tam
                                       of $3.8 million as its portion of an $8.2 million settlement to
actions, to enforce the Act on         resolve a False Claims Act Qui Tam lawsuit. A summary of
behalf of the Government.              the case follows:
Source: False Claims Act
                                       Government Contractor Agrees to Pay $8.2 Million to
                                       Resolve False Claims Lawsuit

                                       An engineering and construction contractor entered into a
                                       civil settlement agreement with the DOJ to pay $8.2 million to
                                       resolve a False Claims Act Qui Tam lawsuit, which alleged
                                       that the contractor “knowingly and deliberately” submitted
                                       millions of dollars in false invoices to the Government. The
                                       Department will receive a payment of $3.8 million as its
                                       portion of the proceeds. The remainder of the $8.2 million
                                       will be paid to other affected Federal agencies, the DOJ, and
                                       the Qui Tam relator. The contractor violated cost accounting
                                       standards, Federal Acquisition Regulations, and contract




                                                                                                    47
                      At Your Service

               clauses when it improperly billed commercial overhead costs
               related to the operations of a division of the contractor to its
               Federal contracts. The Government contracts did not benefit
               from the work performed by the division. (I98LL001)

               Administrative Safeguards
               Former DOE Subcontractor Makes Over $350,000
               Settlement with the Government

               Under the terms of a Civil Settlement Agreement, a former
               subcontractor to the Bettis Atomic Power Laboratory was
               ordered to pay the Federal Government $351,580. The joint
     economy

               investigation by the Department’s OIG, the Navy Criminal
               Investigative Service and the Defense Contract Audit Agency
               determined that the subcontractor made false claims for rent
               and/or facility usage charges. The Department directly
               received $175,790 of the settlement amount. (I92PT008)

               Former Subcontractor Guilty of Submitting False Claims

               An OIG investigation determined that a former subcontractor
               to the West Valley Demonstration Project, West Valley, New
               York, who was also the owner of the business, submitted false
               claims for a leased vehicle and temporary lodging for himself
               and a consultant. The investigation also determined that the
               subcontractor submitted false claims related to compensation
               and expenses for the consultant. The false claims resulted in a
               loss to the Department of approximately $210,000. The U.S.
               Attorney’s Office in the Western District of New York
               accepted this case for criminal and civil prosecution.

               On July 20, 2001, the owner pled guilty in the U.S. District
               Court, Buffalo, New York, to a one count violation of Title
               18, U.S.C. § 287 (False Claims). Sentencing is scheduled for
               November 2001. (I99CN001)

               Department Contractor Improves Internal Travel Policy

               The OIG conducted an investigation into anonymous
               allegations that a University of California (UC) employee at
               the Los Alamos National Laboratory submitted and was




48
                      At Your Service

             reimbursed for travel vouchers by UC and by an outside entity
             with which the UC employee was affiliated for the same
             travel events. UC manages the Los Alamos National
             Laboratory for the Department.

             Although the investigation did not substantiate the allegations,
             the OIG issued an Administrative Report to Management
             (ARM) to the Department’s Albuquerque Operations Office.
             In the Department’s response to the ARM, the OIG was
             informed that UC management agreed: (1) to determine
             whether the Government or an outside entity benefits from the
             travel when an employee is also affiliated with both the
             Government and the outside entity; (2) to review the subject
efficiency

             employee’s travel for any potential conflict of interest; and (3)
             to instruct its Travel Office to review the internal policies and
             practices thereby ensuring that all employees are in
             compliance with respect to claiming incurred and authorized
             travel costs. (I01AL002)

             Intelligence Activities

             The OIG issued two quarterly intelligence reports pursuant to
             Executive Order 12863, “President’s Foreign Intelligence
             Advisory Board.” The Order requires the Inspectors General
             of the Intelligence Community to report to the Intelligence
             Oversight Board concerning intelligence activities that
             Inspectors General have reason to believe may be unlawful or
             contrary to Executive Order or Presidential Directive.

             Legislative and Regulatory Review
             The OIG coordinated and reviewed 28 legislative and
             regulatory items, as required by the Inspector General Act of
             1978 (Act). The Act requires the OIG to review existing and
             proposed legislation and regulations relating to Department
             programs and operations and to comment on the impact which
             they may have on economical and efficient operations of the
             Department.

             Management Referral System

             The OIG operates an extensive Management Referral System.
             Under this system, selected matters received through the OIG
             Hotline or other sources are referred to the appropriate


                                                                          49
                             At Your Service

                     Department manager or other Government agency for review
                     and appropriate action. Complaints referred may include such
                     matters as time and attendance abuse, misuse of Government
                     vehicles and equipment, violations of established policy, and
                     standards of conduct violations.

                     The OIG referred 141 complaints to Department management
                     and other Government agencies during the reporting period.
                     The OIG asked Department management to respond
                     concerning the actions taken on 59 of these complaints.
     effectiveness
                     Recognitions
                     The OIG received two “Awards of Excellence” from the
                     President’s Council on Integrity and Efficiency (PCIE) for
                     inspections conducted during FY 2001. The PCIE annually
                     recognizes audits, inspections, and investigations that were
                     conducted in accordance with the highest standards of
                     professionalism and excellence. The Inspectors received one
                     award for their review of the Department’s Office of
                     Transportation Safeguards, which found that improvements
                     were needed in the coordination of nuclear shipments with
                     State, Tribal, and local government officials. The Inspectors
                     received a second award for their work on an interagency
                     export control review of the Commerce Control List and the
                     United States Munitions List, which was conducted by
                     representatives from the Offices of Inspector General from the
                     Departments of Commerce, Defense, Energy, and State.




50
                                                                At Your Service

                                     AUDIT REPORTS ISSUED IN THE SECOND HALF
                                               OF FISCAL YEAR 2001

                   Report                                                             Date of                    Questioned
                   Number                               Title                          Issue       Savings         Costs

                 IG-0499            Department of Energy’s Super Energy              04-02-01    $2,000,000
                                    Savings Performance Contracts
                 IG-0500            Virus Protection Strategies and Cyber            04-05-01    $6,800,000
                                    Security Incident Reporting
                 IG-0501            Remediation and Closure of the Miamisburg        05-02-01
                                    Environmental Management Project
                 IG-0502            Sale of Land at Oak Ridge                        05-07-01
                 IG-0503            Incentive Fees for Bechtel Jacobs                05-07-01    $15,500,000
                                    Company LLC
Reports Issued




                 IG-0504            Special Report on Performance Measures           05-11-01
                                    at the Department of Energy
                 IG-0505            Utilization of the Department’s Low-Level        05-25-01
                                    Waste Disposal Facilities
                 IG-0507            Special Report on the Department of Energy’s     06-20-01
                                    Implementation of the Clinger-Cohen Act
                                    of 1996
                 IG-0508            Stocked Inventory at the Savannah River Site     06-27-01    $580,000

                 IG-0509            Integrated Planning, Accountability, and         06-28-01    $774,198
                                    Budgeting System-Information System
                 IG-0510            Use of Performance-Based Incentives at           07-09-01    $6,650,000
                                    Selected Departmental Sites
                 IG-0511            Research and Development at Lawrence             07-09-01    $56,000,000     $33,600,000
                                    Livermore National Laboratory
                 IG-0512            Recruitment and Retention of Scientific          07-10-01
                                    and Technical Personnel

                 IG-0513            Financial Assistance for Biomass-to-Ethanol      07-16-01
                                    Projects

                 IG-0514            Administrative Control of the Hanford Reach      07-19-01    $7,500,000
                                    National Monument

                 IG-0515            Control of Classified Matter at Paducah          07-30-01
                                    (Classified Report)




                   Additional information on the OIG, including the full text of its public reports and Department
                   management’s comments, can be found on the OIG website – www.ig.doe.gov.                             51
                                                      At Your Service

                 IG-0516      Information Technology Support Services        08-23-01   $44,300,000
                              Contracts

                 IG-0518      Evaluation of Classified Information Systems   08-30-01
                              Security Program

                 IG-0519      The Department’s Unclassified Cyber            08-30-01
                              Security Program

                 IG-0520      Peer-Reviewed Scientific Literature            08-31-01
                              Generated at the Department’s Light Sources

                 IG-0521      Administration of Small Business Innovation    08-3l-01                  $5,000,000
                              Research Phase II Grants

                 IG-0522      The Plutonium Immobilization Plant at the      09-11-01   $752,000,000
Reports Issued




                              Savannah River Site

                 IG-0523      Sandia National Laboratories Personal          09-17-01
                              Property Accountability

                 IG-0524      Albuquerque Operations Office’s Grant          09-18-01
                              Administration

                 IG-0525      Hazardous Materials Management and        09-24-01        $4,000,000
                              Emergency Response Training and Education
                              Center’s Marketing Program
                 IG-0526      Dissemination of Research from            09-26-01
                              the Environmental Molecular Sciences
                              Laboratory
                 IG-0527      Idaho Operations Office Mixed Low-Level   09-28-01        $40,000,000
                              Waste Disposal Plans

                 HQ-L-01-01   Review of Disbursements at Selected            08-24-01
                              Department of Energy Sites

                 CR-B-01-01   Issues Regarding Fee Structure for Three       05-09-01
                              Environmental Management Contracts

                 CR-L-01-08   Department of Energy’s Environmental           09-07-01
                              Restoration Worker Health and Safety

                 CR-L-01-09   Review of the Department’s Cooperative         09-26-01
                              Agreements




52
                                                       At Your Service

                 CR-FC-01-01   Federal Energy Regulatory Commission’s         04-05-01
                               Fiscal Year 2000 Financial Statement Audit

                 CR-FS-01-02   Information Technology Management Letter       04-25-01
                               on the Audit of the Department of Energy’s
                               Consolidated Financial Statements for Fiscal
                               Year 2000
                 CR-FS-01-03   Management Letter on the Audit of the          06-25-01
                               Department of Energy’s Consolidated
                               Financial Statements for Fiscal Year 2000
                 ER-L-01-07    Federal Oversight Within the Office of         09-20-01
                               Defense Nuclear Nonproliferation

                 ER-FC-01-01   Office of Isotopes for Medicine and Science    04-23-01
                               Report and Financial Statements, September
                               30, 2000
                               Uranium Enrichment Decontamination and         06-19-01
Reports Issued




                 ER-FC-01-02
                               Decommissioning Fund’s Fiscal Year 2000
                               Financial Statement Audit
                 ER-V-01-01    Assessment of Changes to the Internal          05-04-01
                               Control Structure and Their Impact on the
                               Allowability of Costs Claimed by and
                               Reimbursed to Bechtel Jacobs Company
                               LLC Under Department of Energy Contract
                               No. DE-AC05-98OR2270
                 ER-V-01-02    Assessment of Changes to the Internal          05-08-01   $242,000
                               Control Structure and Their Impact on the
                               Allowability of Costs Claimed by and
                               Reimbursed to Lockheed Martin Energy
                               Systems, Inc. Under Department of Energy
                               Contract No. DE-AC05-84OR21400
                 ER-V-01-03    Assessment of Changes to the Internal          05-08-01
                               Control Structure and Their Impact on the
                               Allowability of Costs Claimed by and
                               Reimbursed to Argonne National Laboratory
                               Under Department of Energy Contract
                               No. W-31-109-ENG-38
                 ER-V-01-04    Assessment of Changes to the Internal          08-06-01   $120,057
                               Control Structure and Their Impact on
                               the Allowability of Costs Claimed by
                               and Reimbursed to Lockheed Martin
                               Energy Research Corporation and
                               UT-Battelle, LLC Under Department of
                               Energy Contract Nos. DE-AC05-96OR22464
                               and DE-AC05-00OR22725
                 WR-L-01-04    The Department of Energy’s Process for         09-27-01
                               Determining Stockpile Production Levels
                 WR-V-01-03    Assessment of Changes to the Internal          06-08-01
                               Control Structure and their Impact on the
                               Allowability of Costs Claimed by and
                               Reimbursed to Mason & Hanger Corporation
                               Under Department of Energy Contract
                               No. DE-AC04-91AL65030


                                                                                               53
                                                   At Your Service

                 WR-V-01-04   Assessment of Changes to the Internal       07-05-01   $692,668
                              Control Structure and Their Impact
                              on the Allowability of Costs Claimed
                              by and Reimbursed to Sandia Corporation
                              Under Department of Energy Contract
                              No. DE-AC04-94AL85000
                 WR-V-01-05   Assessment of Changes to the Internal       08-07-01
                              Control Structure and Their Impact on the
                              Allowability of Costs Claimed by and
                              Reimbursed to Honeywell Federal
                              Manufacturing and Technologies Under
                              Department of Energy Contract
                              No. DE-AC04-76DP00613
                 WR-V-01-06   Assessment of Changes to the Internal       08-17-01
                              Control Structure and Their Impact on the
                              Allowability of Costs Claimed by and
                              Reimbursed to Lawrence Berkeley National
Reports Issued




                              Laboratory Under Department of Energy
                              Contract No. DE-AC03-76SF00098

                 WR-V-01-07   Assessment of Changes to the Internal     08-30-01
                              Control Structure and Their Impact on the
                              Allowability of Costs Claimed by and
                              Reimbursed to Lawrence Livermore National
                              Laboratory Under Department of Energy
                              Contract No. W-7405-ENG-48


                              The OIG’s Audit Followup Action:

                                 OIG recommended corrective actions agreed
                                  to by the Department are tracked by the
                                  Department until complete.

                                 The OIG follows up on all Department
                                  nonconcurrences with OIG report
                                  recommendations.

                                 When the Department and the OIG disagree,
                                  the Department must prepare a Management
                                  Decision describing its position and any
                                  alternative action.

                                 The Department’s Chief Financial Officer
                                  reviews the Management Decisions and may
                                  convene a meeting of the Departmental
                                  Internal Control and Audit Review Council
                                  (DICARC) to achieve mutually agreeable
                                  resolution.




54
                                                              At Your Service

                                 INSPECTION REPORTS ISSUED IN THE SECOND HALF
                                              OF FISCAL YEAR 2001*

                       Report                                                            Date of              Questioned
                                                             Title                                  Savings
                       Number                                                             Issue                 Costs

                 IG-0506                 Inspection of Selected Aspects of the Office    06-14-01
                                         of River Protection Performance-Based
                                         Incentive Program
                 IG-0517                 Inspection of Selected Office of Security and   08-24-01
                                         Emergency Operations Firearms Inventories

                 INS-O-02-04             Inspection of the Purchase of Protective        04-12-01
                                         Force Respirators

                 INS-L-01-04             Safety Documentation Issues at the New          04-24-01
Reports Issued




                                         Brunswick Laboratory

                 INS-L-01-05             Environment, Safety and Health Issues           06-15-01
                                         at the Ashtabula Environmental Management
                                         Project
                 INS-L-01-06             Department of Energy Intelligence               06-27-01
                                         Work-for-Others Projects

                 INS-L-01-07             Accident/Injury Reporting at the Miamisburg     07-19-01
                                         Environmental Management Project


                               INVESTIGATION REPORTS ISSUED IN THE SECOND HALF
                                              OF FISCAL YEAR 2001*

                       Report                                                            Date of
                       Number                                Title                        Issue

                 IO1HQ003                Special Review of the Profiling Concerns at     04-03-01
                                         the Department of Energy

                 IO1HQ005                Special Report of the Yucca Mountain            04-23-01
                                         Project




                 * Does not include non-public reports.

                                                                                                                     55
                                                           At Your Service

                                                AUDIT REPORT STATISTICS
                                                 April 1, 2001, to September 30, 2001

             The following table shows the total number of operational and financial audit reports, and the total
             dollar value of the recommendations.


                                                Total          One-Time             Recurring                Total
                                               Number           Savings              Savings                Savings


              Those issued before the
              reporting period for which
              no management decision              12         $219,026,752          $484,370,516          $703,397,268
              has been made:*

              Those issued during the
                                                  47         $823,572,769          $152,186,154          $975,758,923
              reporting period:
Statistics




              Those for which a
              management decision was
                                                  26          $78,102,208          $192,640,000          $270,742,208
              made during the reporting
              period:*

                Agreed to
                                                               $2,036,020            $396,000             $2,432,020
                by management:

                Not agreed to by
                                                              $57,166,188          $144,644,000          $201,810,188
                management:

              Those for which a
              management decision is              14            $692,668                 $0                $692,668
              not required:

              Those for which no
              management decision had             19         $983,397,313          $491,516,670         $1,474,913,983
              been made at the end of
              the reporting period:*

             *The figures for dollar items include sums for which management decisions on the savings were deferred.




                  Additional information on the OIG, including the full text of its public reports and Department
56                management’s comments, can be found on the OIG website – www.ig.doe.gov.
                                                         At Your Service

                                               AUDIT REPORT STATISTICS
                                               April 1, 2001, to September 30, 2001

             The following table shows the total number of contract audit reports, and the total dollar value of
             questioned costs and unsupported costs.

                                                              Total           Questioned          Unsupported
                                                             Number             Costs                Costs

              Those issued before the reporting period
              for which no management decision has               4             $7,651,747            $84,241
              been made:

              Those issued during the reporting period:          0                    $0                $0

              Those for which a management decision              0                    $0                $0
              was made during the reporting period:
Statistics




                  Value of disallowed costs:                                          $0                $0

                  Value of costs not disallowed:                                      $0                $0

              Those for which a management decision              0                    $0                $0
              is not required:


              Those for which no management
              decision had been made at the end of               4             $7,651,747            $84,241
              the reporting period:




                                                                                                               57
                                                   At Your Service

                          REPORTS LACKING MANAGEMENT DECISION

             The following are audit reports issued before the beginning of the reporting period for
             which no management decisions had been made by the end of the reporting period, the
             reasons management decisions had not been made, and the estimated dates (where
             available) for achieving management decisions. These audit reports are over 6 months old
             without a management decision. The Department has a system in place which tracks audit
             reports and management decisions. Its purpose is to ensure that recommendations and
             corrective actions indicated by audit agencies and agreed to by management are addressed
             and effected as efficiently and expeditiously as possible.

             The Contracting Officers have not yet made decisions on the following contract audit
             reports and the reasons for not doing so included the delaying of settlement of final costs
             questioned in audits pending completion of review of work papers and voluminous
             additional records, additional work by the Defense Contract Audit Agency, and completion
             of certain legal and contractual investigations.
Statistics




             ER-CC-93-05           Report Based on the Application of Agreed-Upon Procedures With
                                   Respect To Temporary Living Allowance Costs Claimed Under
                                   Contract No. DE-AC09-8SR18035, October 1, 1987, to September
                                   20, 1990, Bechtel National Inc., San Francisco, California, and
                                   Bechtel Savannah River, Inc., North Augusta, South Carolina,
                                   May 3, 1993
                                   (Estimated date of closure: December 31, 2001)

             WR-C-95-01            Independent Final Audit of Contract No. DE-AC34-RIRF00025,
                                   July 26, 1990, to March 31, 1993, Wackenhut Services, Inc., Golden,
                                   Colorado, March 14, 1999
                                   (Estimated date of closure: December 31, 2001)

             ER-C-97-01            Report on Interim Audit of Costs Incurred Under Contract No. DE-
                                   AC24-92OR219721 from October 1, 1994, to September 30, 1995,
                                   Fernald Environmental Restoration Management Corporation,
                                   Fernald, Ohio, December 20, 1996
                                   (Estimated date of closure: December 31, 2001)

             ER-C-00-03            Interim Audit of Thomas Jefferson National Accelerator Facility
                                   Costs Incurred Under Contract DE-AC05-84ER40150 Fiscal Years
                                   1994 Through 1999
                                   (Estimated date of closure: December 31, 2001)




58
                                                  At Your Service

             Additional time was necessary to develop management decisions for the following reports.
             Further explanations for the delays follow each audit report.

             IG-0411              Contractor Incentive Programs at the Rocky Flats Environmental
                                  Technology Site, August 13, 1997. The finalization of the
                                  management decision on this report is pending the resolution of one
                                  outstanding legal issue. This should occur by December 31, 2001.

             CR-B-99-02           Management of Unneeded Materials and Chemicals, September 30,
                                  1999. The recommendation to assign this responsibility to the Office
                                  of Procurement and Assistance Management has been forwarded to
                                  the Deputy Secretary for approval. A management decision is
                                  expected before December 31, 2001.

             IG-0457              Follow-up Audit of Program Administration by the Office of
                                  Science, January 24, 2000. The Department is awaiting the
                                  Committee on Science, Engineering, and Public Policy's study,
Statistics




                                  GPRA 2000, to be conducted by the end of this year, before it
                                  finalizes its management decision. It should be made by
                                  December 31, 2001.

             WR-B-00-07           Vehicle Use at Lawrence Livermore National Laboratory, September
                                  20, 2000. The finalization of the management decision on this report
                                  is pending conclusion of the selection of the best available
                                  measurement for Lawrence Livermore National Laboratory vehicle
                                  usage. It is estimated that this will occur by November 30, 2001.




                                                                                                   59
                                                                     At Your Service

                                                      INVESTIGATIVE STATISTICS
                                                        April 1, 2001, to September 30, 2001


             Investigations open at the start of this reporting period........................................................... 198
             Investigations opened during this reporting period ................................................................. 50
             Investigations closed during this reporting period ................................................................... 59
             Investigations open at the end of this reporting period ............................................................ 189
             Qui Tam investigations opened ............................................................................................... 2
                   Total open Qui Tam investigations as of 9/30/01 .......................................................... 26
             Multi-agency task force investigations opened ....................................................................... 13
                   Total open multi-agency task force investigations as of 9/30//01 ................................. 72
             Investigative reports to prosecutors and Department management ......................................... 11
             Recommendations to management for positive change and other actions .............................. 16
             Administrative discipline and other management actions ....................................................... 19
             Suspensions/Debarments ......................................................................................................... 9
             Investigations referred for prosecution .................................................................................... 9
                   Accepted* ..................................................................................................................... 9
                   Indictments .................................................................................................................... 9
Statistics




                   Criminal convictions...................................................................................................... 8
                   Pretrial diversions ......................................................................................................... 2
                   Civil actions .................................................................................................................. 4
             Fines, settlements, recoveries** ........................................................................... $12,791,047.11

             *Some of the investigations accepted during the 6-month period were referred for
                  prosecution during a previous reporting period.
             **Some of the money collected was the result of task force investigations.




60
                                                               At Your Service

                                                     INSPECTION STATISTICS
                                                    April 1, 2001, to September 30, 2001


             Inspections open at the start of this reporting period .................................................. 45
             Inspections opened during this reporting period ........................................................ 25
             Inspections closed during this reporting period .......................................................... 18
             Inspections open at the end of this reporting period ................................................... 52
             Reports issued (includes non-public reports) ............................................................. 13
             Inspection recommendations
                  Made this reporting period.................................................................................. 20
                  Accepted this reporting period ........................................................................... 24
                  Implemented this reporting period...................................................................... 32
             Complaints referred to Department management/others ............................................ 141
                  Referrals to Department management requesting a response for
                  OIG evaluations .................................................................................................. 59
Statistics




                                                           Hotline Statistics

             Hotline calls, emails, letters, and other complaints .................................................... 489
             Hotline calls, emails, letters, and other complaints predicated................................... 177
             Hotline referrals received via the General Accounting Office
                  and predicated .................................................................................................... 3
             Unresolved Hotline predications from previous reporting periods ............................ 19
                  Total Hotline predications .................................................................................. 199
             Hotline predications transferred to the Management Referral System ...................... 128
             Hotline predications closed based upon preliminary OIG activity ............................. 60
             Hotline predications pending disposition ................................................................... 11
                  Total predications processed............................................................................... 199




                                                                                                                                     61
                             At Your Service

                           FEEDBACK SHEET




The contents of the October 2001 Semiannual Report to Congress comply with the
requirements of the Inspector General Act of 1978, as amended. However, there
may be additional data which could be included or changes in format which would
be useful to recipients of the Report. If you have suggestions for making the
Report more responsive to your needs, please complete this feedback sheet and
return it to:

                              Department of Energy
                              Office of Inspector General (IG-121)
                              Washington, D.C. 20585

                              ATTN: Wilma Slaughter



Your name:

Your daytime telephone number:

Your suggestion for improvement: (please attach additional sheets if needed)




If you would like to discuss your suggestion with a staff member of the Office of
Inspector General or would like more information, please call Wilma Slaughter at
(202) 586-1924 or contact her on the Internet at wilmatine.slaughter@hq.doe.gov.
                           U.S. Department of
                                 Energy
                                Office of
                           Inspector General


                             HOTLINE

                          Protect Your Investments
Tear along dotted line

                         Be a Good Corporate Citizen

                         Report Fraud, Waste, or
                                 Abuse
                          By a DOE Employee,
                               Contractor
                                   or
                            Grant Recipient
                           Call 1-800-541-1625
                            or 202-586-4073
                          Additional information on the OIG
                           can be found by visiting the OIG
                             website – www.ig.doe.gov.
